<html>
<title> - THE DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[Senate Hearing 109-795]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-795
 
          THE DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW
=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2006

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE

26-640 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

          The Department of Defense Quadrennial Defense Review

                             March 8, 2006

                                                                   Page

England, Hon. Gordon, Deputy Secretary of Defense; Accompanied by 
  ADM Edmund P. Giambastiani, Jr., USN, Vice Chairman, Joint 
  Chiefs of Staff; and Christopher Ryan Henry, Principal Deputy 
  Under Secretary of Defense for Policy..........................     6

                                 (iii)


          THE DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW

                              ----------                              


                        WEDNESDAY, MARCH 8, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:42 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Chambliss, Levin, Reed, Akaka, E. Benjamin Nelson, and Dayton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Sandra E. Luff, professional staff 
member; David M. Morriss, counsel; Lynn F. Rusten, professional 
staff member; Sean G. Stackley, professional staff member; 
Scott W. Stucky, general counsel; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; Bridget W. 
Higgins, research assistant; Gerald J. Leeling, minority 
counsel; and Michael J. McCord, professional staff member.
    Staff assistants present: Benjamin L. Rubin, Jill L. 
Simodejka, and Pendred K. Wilson.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Mackenzie M. Eaglen, assistant to 
Senator Collins; Stuart C. Mallory, assistant to Senator Thune; 
Frederick M. Downey, assistant to Senator Lieberman; Darcie 
Tokioka, assistant to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Kimberly Jackson, assistant to Senator 
Dayton; and Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will come to order. I will 
forego my opening statement. I welcome Secretary England, 
Admiral Giambastiani, and Mr. Henry. I have had preliminary 
conversations with each of you about the importance of what you 
have done. I commend you for a very fine job, and we will learn 
this afternoon the importance of it as it relates to our future 
military planning.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Good afternoon, the Senate Armed Services Committee meets today to 
receive testimony on the Department of Defense (DOD) Quadrennial 
Defense Review (QDR).
    The witnesses here today are:

         Deputy Secretary of Defense, Gordon England;
         Vice Chairman of the Joint Chiefs of Staff, Admiral Edmund P. 
        Giambastiani, Jr; and
         Principal Deputy Under Secretary of Defense for Policy, Ryan 
        Henry.

    We welcome you here today and look forward to your testimony. The 
QDR is a congressionally-mandated comprehensive examination of national 
defense strategy, force structure, modernization, budget plans, and 
other defense plans and programs with view towards determining and 
expressing the defense strategy of the United States with an eye 
towards the future.
    The 2006 QDR is the third QDR since the 106th Congress created a 
permanent requirement for a QDR every 4 years. Senator Thurmond 
considered the requirement for a QDR one of his most significant 
accomplishments in his tenure as chairman of the Senate Armed Services 
Committee.
    Each of these reviews has made important contributions to our 
national defense and yet each QDR has been different from the others. 
Gentlemen, I commend you, the Secretary, the Chairman of the Joint 
Chiefs of Staff, and the senior military and civilian leaders in the 
Department for their personal input into this QDR, especially at a time 
when the entire Department is so fully engaged.
    This is the third QDR, but the first one conducted during wartime. 
The previous QDR hearing was conducted less than a month after the 
events of September 11. The Nation was at a critical juncture in our 
history. In the period since then, our Nation has demanded much from 
our men and women in uniform. Their perfomance has consistently been 
magnificent and heroic. I may add that so too has the support of their 
families at home.
    During this same period, our Nation and our allies have come to 
recognize the nature of the disturbing threat we all face in this long 
war, now in its fifth year.
    The long war against terrorism and extremism is at the heart of 
this QDR. General Pace aptly recognized this point in his risk 
assessment that accompanied the QDR. The Chairman of the Joint Chiefs 
of Staff said:

         We must transform in stride during wartime, and
         We must hedge against uncertainty by identifying and 
        developing a broad range of capabilities.

    Those are compelling comments from the Chairman of the Joint Chiefs 
of Staff. I, for one, will continue to keep those words in mind as our 
discussion of this QDR continues.
    The 2006 QDR has been called evolutionary, not revolutionary. It 
reflects a process of change that has gathered momentum since the 
release of the 2001 QDR; intensified after the events of September 11; 
and sharpened by lessons learned in Afghanistan and Iraq.
    Like previous QDRs, this one has strengths and weaknesses that we 
will, no doubt, discuss and debate.
    I applaud the attention provided to interagency and coalition 
operations. I fully support the 2006 QDR's recommendations to 
strengthen both.
    The QDR identified four specific priorities:

         defend the homeland;
         defeat violent extremists;
         help countries at strategic crossroads; and
         prevent terrorists and dangerous regimes from obtaining 
        weapons of mass destruction.

    These priorities capture the complexities of the strategic 
landscape post-September 11. It is clear that the DOD cannot meet these 
difficult challenges alone. On page 22 of the QDR it states ``broad 
cooperation across the United States Government, and with NATO, other 
allies, and partners is essential.''
    This is so true. All elements of national power must be brought to 
bear to meet today's and tomorrow's national security challenges. The 
last section of the QDR is entitled ``achieving unity of effort.'' We 
must move out on this expeditiously--and with no further delay.
    I stand ready to support efforts to expand the expeditionary 
capability of other Federal agencies to provide the President with 
greater flexibility to respond to national security challenges.
    In addition to strengthening interagency operations, I found the 
recommendations relating to increasing Special Operations Forces, 
strengthening language capabilities, improving cultural awareness, as 
well as sharpening our ability to conduct strategic communications to 
be central to winning this long war and preparing for the uncertainties 
of the next conflict.
    This QDR also details initiatives to amend the Department's 
business enterprises, some of which are already underway. One of 
special note is the reorientation of its processes around joint 
capability portfolios. The portfolio approach offers promise and is a 
logical extension of the success achieved under the Goldwater-Nichols 
Reorganization Act.
    Like its predecessors, certain aspects of this QDR will require 
further explanation and discussion. As the author of the requirement to 
develop and publish the national military strategy, I was struck that 
this QDR relied on a national military strategy that is 2 years old. I 
understand that you anticipate the QDR will inform the next strategy 
document. This seems a bit unconventional to me; however, I look 
forward to the dialogue, discussion, and debate as we craft a defense 
plan for the future.
    I am especially interested in the analysis that supports QDR 
recommendations affecting:

         the size of ground forces;
         support to homeland security in the wake of Hurricane 
        Katrina; and
         threat integration in your capabilities-based force planning.

    We commend your service and work on this QDR.
    Without objection, I ask that the entire text of the QDR Report be 
inserted in the record. The committee looks forward to your testimony 
here today.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, you make it difficult, if not 
impossible, for me to give an opening statement, as brilliant 
as it is. So your punishment, Mr. Chairman, is that I am going 
to send it to your office. I need you to make an absolute 
commitment that you will not only read it, but that you will 
tell me after you read it that you agree with every single word 
in it. That is the punishment. Can you handle that?
    Chairman Warner. We will do that.
    Senator Levin. Thank you. I will waive my opening 
statement. My staff is going to kill me because they put a lot 
of time in this, as did I. But I will put it in the record, 
with the usual welcome to our witnesses and with thanks to them 
for their great service and for the truly important issue which 
they are going to address.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Mr. Chairman, I join you in welcoming our witnesses this afternoon. 
In the past decade, our military has made great strides in transforming 
itself to be lighter yet more lethal. We can deploy faster and attack 
more precisely. Our military has proven itself to be flexible and 
adaptable, and we have done all this as the preeminent military power 
in the world, without a peer competitor to spur us on. As the 
Quadrennial Defense Report (QDR) puts it, ``Sustaining continuous 
operational change and innovation are a hallmark of U.S. forces.'' 
Americans are justly proud of our military.
    However, to quote your report, ``The United States will not win the 
war on terrorism or achieve other crucial national security objectives 
discussed in this Report by military means alone.'' Both Congress and 
the executive branch can do more to integrate all the instruments of 
national power--offense, defense, and prevention--to promote and 
protect our security both at home and abroad. The QDR talks about 
extending the Goldwater-Nichols spirit of jointness into the 
interagency process, and I think that should be done. But we should 
think beyond the government's role as well.
    In his testimony to our committee last month, General Pace wrote: 
``Thankfully, the daily life of the average American citizen reflects 
none of the hardships or shortages we associate with a nation at war.'' 
That is true, but there is another side to that coin. An Army officer 
returning from Iraq last summer was quoted in the New York Times as 
saying ``Nobody in America is asked to sacrifice, except us.''
    If we are truly engaged in a ``long war'' against terrorism, then 
the Nation, not just the soldier and the marine, need to be involved. 
Yet so far, that has not been the case. To date, the President has not 
asked those of us who are not serving in Iraq and Afghanistan to even 
make the most obvious sacrifice of paying the bill to support the few 
of us who are asked to serve. Every penny of the cost of these 
operations has been borrowed and added to the national debt our 
children must repay. If this is a long war, our children will end up 
paying our share as well as their own if this practice persists.
    In October 2003, Secretary Rumsfeld wrote a memo to the senior 
Department of Defense (DOD) leadership that stated in part, ``we are 
putting a great deal of effort into trying to stop terrorists. The 
cost-benefit ratio is against us! Our cost is billions against the 
terrorists' costs of millions.''
    Secretary Rumsfeld wrote that memo in the opening weeks of fiscal 
year 2004. In the 2 years that would follow, we spent $160 billion on 
operations in Iraq and Afghanistan. Last month, the administration 
submitted yet another supplemental request that would push the total 
spent in connection with these operations to $122 billion in fiscal 
year 2006, the highest level ever. That is over $10 billion a month. 
Clearly we have not yet found the right solution to the problem the 
Secretary posed. This is not a sustainable path for our Nation. The QDR 
states that ``the United States must constantly strive to minimize its 
own costs in terms of lives and treasure, while imposing unsustainable 
costs on its adversaries.'' I do not believe any of us could tell the 
American people we are doing so today.
    One step in forging the national consensus we all seek is to start 
budgeting for this long war honestly--telling the American people what 
it costs and deciding how to pay the bill now. That is why I have 
written to the Budget Committee asking that the costs relative to these 
operations not be added to the budget above the line as emergencies, 
but included into the budget itself, and into the normal authorization 
and appropriation process.
    Honest budgeting could also help spark a fuller public debate about 
whether we are relying too much on costly military methods to fight 
terrorism. If the American taxpayer was actually being presented with a 
$10 billion per month bill, the public would demand that we would all 
work harder at finding alternative solutions.
    I am also concerned that maintaining our current troop levels in 
Iraq is not sustainable over the long term. Despite the Department's 
belief that we are in a ``long war,'' the QDR calls for returning our 
Army and Marine Corps personnel strengths to their lower pre-Iraq 
levels despite the significant increase in our demands on our ground 
forces. How does the Department believe a smaller ground force will 
sustain itself for this long war?
    The QDR raises other questions as well:

         How confident are we that we can bring over 50,000 military 
        personnel presently stationed overseas back to the United 
        States with no increase in our strategic lift requirements and 
        no impact on our alliances and regional engagement?
         The report states that ``There is growing and deep concern in 
        the Department of Defense's senior leadership and in Congress 
        about the acquisition processes. This lack of confidence 
        results from an inability to determine accurately the true 
        state of major acquisition programs when measured by cost, 
        schedule, and performance.'' The report makes this very 
        troubling description of our acquisition process, but it is not 
        clear what changes you have in mind to address this issue.
         The QDR calls for the need for more language skills and 
        cultural knowledge in our military. The report then states the 
        logical conclusion that people with such skills should probably 
        ``serve on long-term assignments in key strategic regions of 
        the world rather than assuming the traditional career path of 
        multiple, short-term assignments.'' Few people outside the 
        military may understand how potentially revolutionary a change 
        in DOD's culture this could turn out to be. How broadly might 
        such a change in our assignment policies extend?
         The QDR talks about the threat of terrorists or others 
        obtaining and using weapons of mass destruction. Yet there is 
        not a single mention of truly preventative measures like the 
        cooperative threat reduction program. Why is the Department 
        calling for new efforts to locate or defend against weapons of 
        mass destruction, but giving inadequate attention to ways of 
        destroying fissile material before it can get into the hands of 
        those who would use it to make the weapon?
         Finally, the QDR repeatedly calls for ``more flexible 
        authorities from Congress'' on a number of fronts, including 
        training foreign military and police forces, providing them 
        with logistical support and equipment, and allowing U.S. 
        military personnel to spend funds under the Commander's 
        Emergency Response Program around the globe. The need to act 
        quickly in the modern world is evident, and I understand why 
        the Department would seek as much flexibility and authority as 
        it can get, but you need to recognize that Congress has its 
        role, and that checks and balances have their place in an 
        democratic society, in order to ensure oversight and 
        accountability. There is a natural tension between the 
        executive branch's desire for sweeping authority and the need 
        for accountability. Additionally, such authorities, in a 
        narrower form, have been provided to the Department of State 
        and overseen by the Foreign Relations Committee. Why should 
        these authorities be broadened and provided to the Department 
        of Defense? This report discusses the need for more 
        ``jointness'' between executive branch agencies. How would DOD 
        work with or through other agencies if given additional 
        authorities?

    Secretary England, I very much appreciate and agree with the words 
in your prepared testimony: ``America needs a strong, bipartisan 
consensus on national security.'' Your actions as well as your words 
have shown your commitment to that in the past. On a number of fronts, 
from Iraq to the Patriot Act, we do not have that consensus today. I 
hope that our conversation this afternoon will be part of building such 
a consensus.

    Chairman Warner. Good. Thank you. At this point in time, I 
would also like to submit Senator Lieberman's opening statement 
for the record.
    [The prepared statement of Senator Lieberman follows:]
           Prepared Statement by Senator Joseph I. Lieberman
    Good afternoon. I would like to thank Secretary England, Admiral 
Giambastiani, and Secretary Ryan for attending this hearing and serving 
our Nation. The Quadrennial Defense Review (QDR) is extremely 
important. In Washington, DC, we are usually consumed with coping with 
the imminent problems that confront us on a daily basis. The QDR gives 
us an opportunity to make careful judgments about what we will require 
in 10 to 15 years and make considered connections between today and 
tomorrow to guide us in deciding what we will need, while also enabling 
the best use of scarce resources.
    Because this was the first QDR issued after September 11, I had 
high expectations that it would more clearly begin to shift military 
capabilities to match our new security environment. There are some 
important changes outlined in the QDR that achieve this goal. Special 
forces battalions will be increased by one-third to fight the war 
against radical Islamists. We will make a greater investment in human 
intelligence, psychological operations, and civil affairs units and we 
will also embark in the too-long delayed program to increase land-based 
long-range air strike capability and unmanned aerial vehicles.
    Although these initiatives are promising, I was disappointed in the 
scope and intensity of the QDR's ambition. This QDR had the potential 
to serve as the framework for substantial alterations in our Nation's 
military. In fact, early reports from the Pentagon in 2005 indicated 
that Secretary Rumsfeld welcomed the opportunity for a significant 
transformation. An undertaking of this magnitude requires leaders to 
make hard choices. It also necessitates the willingness to scrutinize 
our security challenges and capabilities with a birds-eye view. 
Unfortunately, I conclude this QDR fell short.
    While the substantial changes in our Nation's threat environment 
since September 11 are clearly outlined in the QDR, this new reality 
did not cause reconsideration of resource allocation. The relative 
shift in resources is small. All our weapons are technologically 
capable. The question is not whether a particular weapons system 
performs well today, but which capable weapons systems are more likely 
to prove indispensable in the future. The QDR provides the opportunity 
for such a critical consideration to take place, but I'm afraid that 
the recent review failed to fully meet this challenge.
    It appears that the starting point was the President's budget. 
Budgetary constraints, rather than strategic need, determined the QDR's 
outcomes. As a result, this QDR merely layers a few additional 
capabilities on top of the status quo program. An assessment of our 
Nation's most pressing security threats reveals that we need to 
reconsider this approach. One area that received little critical 
attention in the QDR is homeland security. For example, the QDR 
provided no concrete proposals to prepare for and respond to disasters 
on the scale of Hurricane Katrina. Only one concrete decision--an 
increase in funding for biodefense--addresses the numerous problems of 
homeland security we face in the United States.
    Likewise, our post-September 11 strategy demands more reliance upon 
joint warfighting. Bulging Federal deficits demand not just service 
integration, but also a more efficient development of weapons systems 
to ensure that our military services coordinate their acquisitions. We 
cannot simply pay lip service to this matter. A serious plan would 
demand that every major weapon be ``born joint'' rather than made joint 
at adolescence or maturity to prevent costly conflicts and duplication 
down the road. Secretary England previously testified that we should be 
examining Department-wide tactical air integration, similar to the 
preliminary steps to integrate Navy and Marine Corps tactical air. But 
instead of moving forward, the fiscal year 2007 budget, derived from 
the QDR, seems to have lost ground. The cancellation of the Joint 
Unmanned Combat Aircraft, in deference to separate service programs, is 
a case in point.
    The QDR also does a lackluster job in evaluating the nature of the 
conventional threats that the United States faces in the future and the 
capabilities our military must maintain to meet them. There is little 
detailed discussion about the long-term security challenges posed by 
Russia and China, and the changes in conventional forces that may be 
necessary. The few recommended actions are inadequate to meet the risks 
at hand. The QDR recognizes the rapid rate of Chinese submarine 
production and the potential future threat associated with this growth, 
but does not advocate an increase in submarine production for the 
United States until 2012. By 2020, this delay will put us slightly 
behind China.
    I remain very concerned about the immediate and long-range future 
of our military. For that reason, I regret to conclude that the QDR has 
not seized the moment to make the serious capability adjustments the 
future requires. As the United States continues the ``long war'' on 
terrorism, we must realize that avoiding hard decisions is a pathway 
riddled with danger. How much risk do we undertake to maintain the 
status quo? This QDR does not provide a complete enough answer to this 
consequential question.

    Secretary England, will you proceed?

STATEMENT OF HON. GORDON ENGLAND, DEPUTY SECRETARY OF DEFENSE; 
   ACCOMPANIED BY ADM EDMUND P. GIAMBASTIANI, JR., USN, VICE 
 CHAIRMAN, JOINT CHIEFS OF STAFF; AND CHRISTOPHER RYAN HENRY, 
     PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY

    Secretary England. Mr. Chairman, I also feel a bit 
intimidated at this time, but I will say just a few words about 
the Quadrennial Defense Review (QDR). First of all, I thank you 
for the opportunity to be here along with the Admiral and Mr. 
Henry.
    My only comments are, first of all, that we answered the 10 
questions you posed in your letter to us. In the written 
testimony for the record, we have answered the questions that 
you directed to us.
    I would also mention that the QDR is a strategic level 
document. I say that because it is not a program document. The 
actual programs show up in the 2007 budget. In preparing the 
QDR, we tried to incorporate some facets of the QDR in the 2007 
budget, but we certainly did not incorporate the entire QDR in 
the 2007 budget. So we will be going through the QDR as part of 
the 2008 budget exercise and you will see more of the 
implementation of the QDR in the 2008 budget, I expect, than 
you have seen in the 2007 budget.
    Also, I would like to add that this was a very inclusive 
process, not only within the Department of Defense (DOD), but 
we also included the Department of State (DOS), the Department 
of Homeland Security (DHS), the Department of Justice (DOJ), 
the Department of Energy (DOE), the Intelligence Community 
(IC), and friends and allies that were with us. This is a very 
unified output from the Federal Government and also from our 
friends and allies who participated in this review.
    We will also be recommending as a consequence of the QDR 
some legislative changes. There are about 20 changes in the 
works that we will recommend. For example, one of those would 
be to extend the authority that we have today for Iraq and 
Afghanistan to provide in limited circumstances supplies and 
services to allies who are in combined operations with U.S. 
forces to provide them goods and services as needed, and we 
would have a dollar limit on that. What we have learned in the 
past 4 years we have tried to incorporate in the QDR and in 
some of the legislative changes we are recommending to you.
    This is a critical time for America. This is about will, 
resolve, and determination, and it will require both the DOD 
and Congress working together to move the military into a 
direction that is most appropriate for the future.
    I thank you for the opportunity to be able to discuss this 
with you and your committee. So thank you, Mr. Chairman.
    [The prepared statement of Secretary England follows:]
               Prepared Statement by Hon. Gordon England
    Chairman Warner, Senator Levin, and members of the committee, thank 
you for the invitation to engage in a dialogue with you today. It is a 
special privilege to appear together with my close friend and 
colleague, Admiral Ed Giambastiani, who has been my constant 
counterpart in co-leading the 2006 Quadrennial Defense Review (QDR) 
process, and with Ryan Henry, who has spearheaded the effort all the 
way through. Let me start out by saying how much we appreciate the 
opportunity to meet with this committee. The Department of Defense 
(DOD) needs your support in making hard choices as we try to be more 
effective in preparing the military and the Nation for the future. 
Without the full support of Congress, there will be no way that the 
Department can implement this QDR and the strategic direction it lays 
out.
    The Department has worked diligently this past year on the 2006 
QDR. Today, we are prepared to discuss our efforts to date, and our 
plans for the implementation of the QDR's strategic direction. In an 
Annex to this statement for the record, responses to the QDR questions 
raised in the recent letter from Chairman Warner and Senator Levin are 
provided.
    The QDR is a strategic document. It is based on the recognition 
that the DOD, and our Nation as a whole, face a global security climate 
of dynamic, complex threats, and that these threats will continue into 
the foreseeable future. The Nation has accomplished a great deal over 
the 4 years since our last QDR. Much more remains to be done.
    This is a critical time for America. We are a Nation at war.
    America is fighting against dispersed networks of terrorist 
extremists. This enemy is adaptable, relentless, and will continue the 
attack whenever and wherever he finds the opportunity. We did not 
choose this fight, but we don't have the option of walking away. 
Victory requires that our military continue to adopt unconventional, 
irregular, and indirect approaches to eliminate the enemy's ability to 
strike.
    But the long war is only part of the Nation's security challenge.
    Hostile states or non-state actors could acquire and use weapons of 
mass destruction (WMD), and could strike a shattering blow to the U.S. 
or our allies. This is a real danger as corrupt regimes are actively 
developing WMD, while terrorists seek access to WMD. Guarding against 
this threat--and preparing for possible attacks--requires that we 
pursue new technologies, build new sets of skills, and redouble our 
counter-proliferation efforts with international partners.
    The Nation also faces the possibility that a major or emerging 
power could choose to pursue a hostile course. The most effective 
approach will be to foster cooperation with emerging powers, while 
taking prudent steps to hedge against surprise. Traditional, state-
based threats are still a concern. They have been kept at bay precisely 
because our Nation has been so well prepared.
    Of course, all of these challenges have a bearing on the security 
of our U.S. homeland. Detecting, deterring, and defeating the threats 
far from our shores is the best way to keep America safe. But the DOD 
is also prepared to defend America closer to home, and the Department 
continues to provide support to other agencies of the U.S. Government 
for homeland security missions.
    Importantly, over the next quarter century, scientific change will 
proceed significantly more rapidly than ever before. These advances 
will help us improve and expand our economy, but they will also help 
our adversaries who would do us harm. In a global marketplace, small 
competitors will increasingly have access to the latest commercial 
technologies and, in some cases, to advanced military technologies as 
well.
    The 2006 QDR lays out the strategic approach of the DOD for meeting 
these challenges. It captures the Department's best thinking, planning, 
and decisions as of early 2006. It is therefore an ``interim'' 
document, intended to launch a continuous wave of future improvements.
    Highlighted below are the key findings of the 2006 QDR, for 
consideration as this committee and the full Congress decide how best 
to act on the QDR's recommendations. Some of these steps apply to the 
DOD alone, but many require the cooperation of other agencies.

         Defeat terrorist extremists in the long war.
         Defend the Homeland in depth.
         Help shape the choices of countries at strategic crossroads.
         Prevent the acquisition or use of WMD by hostile state or 
        non-state actors.
         Ensure that the United States maintains its scientific and 
        technological leadership.
         Integrate all the elements of U.S. national power for both 
        Homeland and national security.
         Develop a management structure for the DOD that is as agile 
        as our forces, moving to an information age enterprise rather 
        than the industrial age enterprise we have today.
         Meet the security challenges of a new century with the broad 
        support of all political parties and administrations.
         Focus on building capabilities, rather than numbers.

    Putting all of this into practice will take time. This year, for 
the first time, the Department submitted the QDR Report to you at the 
same time as the President's budget request. This allowed us to insert 
a few ``leading edge'' QDR measures into the request. But for the most 
part, the full effects of this QDR will appear in 2008, 2009, and 
beyond.
    To realize the QDR's strategic vision, and to meet the challenges 
of the 21st century, America will require constancy of leadership, and 
unity of purpose within the U.S. Government and with our friends and 
allies.
    It was a steady commitment of national and international will, 
sustained for over 40 years, that succeeded in defeating the Communist 
threat. In the difficult days of the Cold War, America was blessed to 
have a succession of leaders with vision and courage, who faced down 
Communist expansion and intimidation, and stood up for freedom, 
liberty, and prosperity.
    This commitment of national will transcended multiple Presidencies 
and Congresses. It included Democrats and Republicans, liberals and 
conservatives, all of whom put America's security first.
    At the beginning of the Cold War, Harry Truman, a Democrat, was 
fiercely opposed on many issues by the Republican Congress. 
Nevertheless, to make sure we succeeded in the epic struggle between 
freedom and totalitarianism, the two parties found common cause, forged 
a consensus, and established capable, long-lasting new institutions of 
national security, including our own DOD.
    At the beginning of this new long war, our Nation needs to build on 
its past successes. More than in any past conflict, America needs a 
strong, bipartisan consensus on national security. Success will also 
require coordination between the executive and legislative branches. 
This committee has a critical role to play in facilitating these 
relationships. The Nation will also need an integrated effort among all 
agencies and at all levels of the U.S. Government, as well as with our 
international partners.
    The security challenges before us are difficult and complex, and 
how well we handle them will profoundly shape the prospects for future 
generations. This is a war of commitment, will, and resolve, over a 
sustained period of time. America remains the strongest nation on 
Earth. With the united will of Congress and the American people, and 
the hard work and sacrifices of our men and women in uniform, the DOD 
will continue to provide the security that supports the freedom we all 
enjoy.
    Thank you for your commitment to this most profound endeavor.
  Annex A to Written Statement by Deputy Secretary of Defense Gordon 
                                England
I. Goals of the Department of Defense in the QDR
    The 2006 Quadrennial Defense Review (QDR) was designed to serve as 
a catalyst, to spur the Department's continuing adaptation and 
reorientation, as part of a longer-term continuum of change. The QDR 
effort had two main goals:

        <bullet> To reorient the Department's capabilities and forces 
        to be more agile, to prepare for wider asymmetric challenges 
        and to hedge against uncertainty over the next 20 years; and
        <bullet> To implement enterprise-wide changes to ensure that 
        organizational structures, processes, and procedures 
        effectively support the Department's strategic direction.

    These efforts are two sides of the same coin -- you cannot achieve 
the former without the latter.
II. Any deviation from the requirements of section 118 of title 10, 
        U.S. Code, in the conduct or results of the QDR, and the 
        reasons therefore
    The 2006 QDR does not deviate from the requirements of section 118 
of title 10, U.S. Code. As a point of clarity, section 118 (b)(1) 
requires the Department, as part of the QDR, to ``delineate a national 
defense strategy consistent with the most recent National Security 
Strategy.'' Though issued as a separate document, the March 2005 
National Defense Strategy (NDS) provides the strategic foundations for 
the 2006 QDR, as the QDR Report states.
III. Program and policy changes recommended by the QDR
    To continue the Department's reorientation to meet 21st century 
security challenges, the 2006 QDR recommended programmatic and policy 
changes, in several broad categories:

        <bullet> Adapting capabilities, forces, and policies to better 
        address the four priorities identified as the focus of the QDR: 
        defeating terrorist networks; defending the homeland in depth; 
        shaping the choices of countries at strategic crossroads; and 
        preventing hostile states and non-state actors from acquiring 
        or using WMD
        <bullet> Reshaping the defense enterprise itself, to be more 
        agile and responsive to the requirements of warfighters
        <bullet> Updating workforce management policies, practices, and 
        authorities for the Total Force--Active and Reserve military, 
        civilian and contractor--to improve its ability to adapt.
        <bullet> Recommending policies and authorities to improve unity 
        of effort within the U.S. Government, and with international 
        allies and partners.

    Major recommendations of the 2006 QDR include the following:

        <bullet> Increasing the capabilities of Special Operations 
        Forces.
        <bullet> Increasing General Purpose Forces' capabilities for 
        irregular warfare.
        <bullet> Continuing reorientation of tailored deterrence based 
        on the New Triad.
        <bullet> Improving long-range strike capabilities.
        <bullet> Improving weapons of mass destruction (WMD) response 
        capabilities.
        <bullet> Investing in broad-spectrum medical countermeasures.
        <bullet> Strengthening intelligence, surveillance, and 
        reconnaissance (ISR) capabilities.
        <bullet> Improving joint command and control capabilities.
        <bullet> Strengthening and reshaping the defense enterprise.
        <bullet> Strengthening and rebalancing the Total Force--Active 
        and Reserve military components, civil servants, and 
        contractors.
        <bullet> Enhancing unity of effort in the interagency.
        <bullet> Supporting U.S. Government strategic communications 
        efforts.
IV. Threats and risks facing the United States and our allies that were 
        examined for the purposes of the review
    The foundation of the 2006 QDR is the 2005 National Defense 
Strategy, which outlines the four major categories of threats that the 
U.S. faces: familiar traditional threats; irregular threats, including 
terrorism, insurgency or guerrilla warfare; catastrophic threats, 
including WMD; and disruptive threats designed to disrupt or negate 
traditional U.S. military advantages. While America still faces 
traditional threats, the preponderance of future challenges are likely 
to fall into the other three areas, which requires the DOD to continue 
to reorient and broaden its focus.
    Against the backdrop of the NDS, the QDR's terms of reference 
identified four key challenges that the United States faces:

        <bullet> The U.S. faces threats from distributed, multiethnic 
        networks of terrorist extremists, who use indiscriminate 
        violence, propaganda, and intimidation to advance their ends.
        <bullet> The U.S. Homeland is vulnerable to transnational 
        movement of terrorists, extremist ideologies, advanced weapons, 
        and disease, as well as to conventional military threats and 
        natural disasters.
        <bullet> Major and emerging powers could reject the path of 
        cooperation and choose instead a hostile course, affecting the 
        strategic position and freedom of action of the U.S. and its 
        allies.
        <bullet> A growing number of hostile regimes and terrorist 
        groups seek to acquire WMD, or to use it to devastating effect. 
        They are not likely to respond to the traditional tools of 
        deterrence.

    Accordingly, four key priorities for the Department are: defeating 
terrorist networks, defending the Homeland in-depth, shaping the 
choices of countries at strategic crossroads, and preventing the 
acquisition or use of WMD by hostile actors. While these four areas are 
not exhaustive, they are areas of particular concern, and addressing 
them will provide the Department with the capabilities, forces and 
policies it needs to be adaptable and versatile in response to other 
potential threats.
    To refine the Department's vision and approach, senior civilian and 
military leaders engaged in detailed discussions of each focus area. 
Those discussions included input from the military departments, 
components, and combatant commands, and were informed by Defense 
Intelligence Agency assessments. The entire process was further 
informed by operational experiences from the irregular long war we are 
currently fighting, which shed additional light on the nature of the 
threats we face. Also, throughout the QDR process, the Department 
conducted outreach to key allies and partners, exploring their views of 
the shared threats we face. Their best ideas were incorporated into the 
QDR effort.
V. Assumptions used in the review including desired/required readiness 
        levels, warning times, the cooperation of allies, and 
        interagency mission sharing
    The QDR adopted the basic assumption of the President's 2002 
National Security Strategy, and the Department's own 2005 NDS, that the 
21st century offers a greater range of security challenges, and greater 
uncertainty, than ever before. The importance of non-state actors is 
increasing, and they are less susceptible than states are to 
traditional deterrence tools. Most potential adversaries, unable to 
challenge America successfully through conventional means, will opt for 
unconventional, asymmetric ones. At the same time, traditional, state-
based threats remain. We have been successful in keeping them at bay 
precisely because we are so well-prepared. Meanwhile, the pace of 
technological and scientific change, and the dispersion and 
availability of these changes through globalization, will only enhance 
the uncertainty.
    The QDR also recognized that DOD cannot meet the array of 
challenges alone. The U.S. needs to apply all available instruments of 
national power, through enhancing the expeditionary capabilities of 
some agencies, and through closer integration across the board in 
planning, training, exercising, and implementation.
    The QDR further assumed that the U.S. Government as a whole cannot 
succeed in the Long War, or meet the rest of the array of security 
challenges, alone. The U.S. will adapt longstanding alliances and 
foster new partnerships.
VI. Role that the Joint Requirements Oversight Council (JROC) and the 
        Combat Support Agencies played in development of the QDR
    The 2006 QDR process was the most inclusive review process ever 
carried out by the Department. It was leadership-driven, and it also 
included broad participation from all relevant stake-holders, in order 
to achieve unity of vision and purpose for the Department's ongoing, 
comprehensive re-orientation of focus.
    The process was chaired by the Deputy Secretary of Defense and the 
Vice Chairman of the Joint Chiefs of Staff. Throughout 2005, the 
Department's senior civilian and military leaders met regularly. That 
QDR deliberative body reported periodically to the Secretary of 
Defense. The process reached out to the military departments, DOD 
components, and combatant commands.
    The JROC--chaired by the Vice Chairman and including the Vice 
Chiefs of the Services--did not have a separate defined role in the 
process. Rather, all of its members were full-time participants in the 
QDR effort, and were instrumental in shaping the process and the 
outcomes.
    The QDR process did draw on the expertise of the combat support 
agencies and their leadership. For example, the Defense Intelligence 
Agency provided intelligence and analytical support for the QDR 
discussions of the ``four focus areas.'' The Defense Threat Reduction 
Agency provided analytic support for QDR work on the focus area, 
``preventing acquisition or use of WMD by hostile actors.''
VII. Explanation of any new terminology used in the QDR
    A critical component of the Department's 20-year strategic outlook 
is the force planning construct (FPC) used to size and shape the force. 
As part of the 2006 QDR, the Department's senior civilian and military 
leaders refined the FPC, to synchronize it with the QDR's updated 
strategic vision. The refined FPC divides the Department's activities 
into three broad categories: Homeland defense, war on terrorism/
irregular warfare, and conventional campaigns. It accounts for both 
``steady-state'' requirements, activities that the Department conducts 
continuously; and ``surge'' requirements, those that occur 
episodically.
    The refined force planning construct calls on U.S. forces to be 
able to do the following things:

        <bullet> Defend the Homeland. Steady-state requirements include 
        detecting, deterring, and, if necessary, defeating external 
        threats to the U.S. Homeland, and enabling partners to 
        contribute to U.S. national security. Surge requirements 
        include contributing to the Nation's management of the 
        consequences of WMD attacks or catastrophic events.
        <bullet> War on Terror/Irregular Warfare. Steady-state 
        requirements include deterring and defending against external 
        transnational terrorist attacks, enabling partners though 
        integrated security cooperation programs, and conducting 
        multiple, globally distributed irregular operations of varying 
        duration. Surge requirements include conducting a large-scale, 
        potentially long-duration irregular warfare campaign including 
        counterinsurgency, and conducting security, stability, 
        transition and reconstruction (SSTR) operations.
        <bullet> Conventional Campaigns. Steady-state requirements 
        include deterring interstate coercion or aggression through 
        forward-deployed forces, enabling partners through theater 
        security cooperation, and conducting presence missions. Surge 
        requirements include waging two nearly simultaneous 
        conventional campaigns (or one, plus a large-scale long-
        duration irregular campaign), while reinforcing deterrence 
        against opportunistic aggressions.

VIII. Any changes in doctrine and training that would be required
    Achieving the QDR strategic vision will also require some 
adjustments to doctrine and training. A number of these recommendations 
are spelled out in the QDR Report. In addition, in eight specific areas 
that cross-cut military department and the Office of the Secretary of 
Defense component interests, the Department has created QDR follow-on 
``execution roadmap'' efforts, to refine further and help implement QDR 
decisions. Those ongoing roadmap efforts may produce additional 
recommendations for training and doctrine changes needed to support the 
QDR decisions.
    Highlighted here are some of the areas in which the Department's 
reorientation is likely to produce training and doctrinal changes:

        <bullet> Preparing to participate in complex, interagency, and 
        multinational operations. The QDR stressed the need for further 
        advances in joint training and education to prepare for 
        participation in complex operations, at home and abroad. To 
        shift focus and address the shortfalls, the QDR recommended 
        that the Department develop a joint training strategy to 
        address new mission areas and gaps; and that it revise the 
        Training Transformation Plan to incorporate irregular warfare, 
        complex stabilization operations, combating WMD, and 
        information operations.
        <bullet> Helping improve interagency unity of effort. To help 
        improve U.S. interagency integration in planning and conducting 
        complex operations, the QDR recommended enhancing opportunities 
        for interagency training, including transforming the National 
        Defense University into a National Security University with 
        broad interagency participation.
        <bullet> Building the security capacity of partner states. 
        Fostering competent, indigenous security forces in partner 
        countries is a key element of the strategy for success in the 
        long war. The QDR recommended that U.S. general purpose forces 
        assume greater roles in training, mentoring and advising 
        foreign security forces. This new emphasis will require some 
        adjustments in training.
        <bullet> Improving language and cultural skills. To succeed in 
        the long war, and to facilitate closer cooperation with 
        international partners, the QDR recommended significantly 
        enhancing the language and cultural skills of the force. 
        Measures include expanding Service Foreign Area Officer 
        programs, recruiting and training heritage speakers to serve as 
        translators, requiring language training as part of Reserve 
        Officer Training Corps (ROTC) and Service Academy curricula, 
        and improving pre-deployment language and cultural training.
        <bullet> ``Operationalizing'' the Reserve component. The QDR 
        stressed the need to use the Reserve component as an 
        ``operational,'' rather than a ``strategic,'' force, and to 
        make it more accessible. Recommendations include better 
        focusing Reserve component competencies for homeland defense 
        and civil support operations; increasing flexibility for long-
        term service by individual Reserve component volunteer 
        augmentees; and developing select Reserve component units that 
        train intensively and require shorter deployment notice. These 
        initiatives would likely require adjustments in training.
IX. Any changes in the Unified Command Plan that would be required
    The 2006 QDR makes no changes to the Unified Command Plan.
    The QDR's decision to transform designated existing military 
department operational headquarters into fully functional and scalable 
Joint Command and Control Joint Task Force-capable Headquarters, 
complements standing guidance to move toward greater jointness at the 
operational level.
X. Any proposed legislation that would be required to implement 
        decisions in the QDR
    Implementing some aspects of the QDR strategic vision may require 
some changes to legislation. The DOD is in the process of elaborating 
and putting forward specific proposals for legislative change. The 
Department's senior leadership looks forward to working closely with 
Congress on these initiatives.
    Highlighted here are some of the more important initiatives:

        <bullet> Increasing flexibility in the use of the Reserve 
        component. The QDR stressed the need for greater flexibility in 
        the use of the Reserve component in the Department's support to 
        civil authorities for homeland security missions. The QDR 
        recommended seeking authorization to allow the use of National 
        Guard WMD Civil Support Teams for cross-border WMD events in 
        Canada and Mexico. The QDR also recommended seeking 
        authorization to use Presidential Reserve Call-up for natural 
        disasters.
        <bullet> Expanding ability to shape the force. The QDR stressed 
        the need to improve the Department's ability to shape and 
        manage the force, in order to meet today's much more diverse 
        array of challenges. The QDR recommended seeking the authority 
        to extend the length of service prescribed by Presidential 
        Reserve Call-up from 270 days to 365. It also recommended 
        seeking tools to allow the Air Force and Navy to shape their 
        forces for the future, including greater flexibility in 
        separation incentives and interservice transfer bonuses.
        <bullet> Managing healthcare. The QDR stressed the Department's 
        commitment to responsible management of healthcare costs, while 
        maintaining force medical readiness and satisfaction with 
        TRICARE. The QDR recommended seeking legislative support to 
        restore the balance between government and individual health 
        care contributions.
        <bullet> Improving options for stability, security, transition, 
        and reconstruction operations abroad. Victory in the long war 
        requires the application of all elements of U.S. national 
        power. To that end, the QDR proposed the creation of the 
        President's Security Investment Fund, to enable the President 
        to commit resources to respond to high-priority requirements 
        overseas. The QDR also recommended seeking changes to make 
        permanent the Commanders' Emergency Response Program currently 
        in force in Operation Enduring Freedom (OEF) and Operation 
        Iraqi Freedom (OIF).
        <bullet> Facilitating the more rapid integration of coalition 
        partners into complex operations. The QDR recommended the 
        creation of a Defense Coalition Support Account, to fund 
        rapidly and, where appropriate, stockpile, high-demand 
        equipment such as helmets, body armor, and night vision 
        devices, in order to reduce the lead time required to equip 
        coalition partners. The QDR also recommended seeking the 
        authority to provide nonreimbursable logistic support, 
        supplies, and services to coalition partners in combined 
        operations. This would make permanent authorities currently 
        restricted to OEF and OIF. Finally, the QDR supported easing 
        restrictions on the transfer of significant military equipment, 
        such as armored high mobility multi-wheeled vehicles (HMMWVs), 
        for temporary use by coalition partners in combined operations.
        <bullet> Building relationships with new partner countries. The 
        QDR stressed the need to initiate and build robust security 
        relationships with new partners. To support that goal, the QDR 
        recommended expanding the Combatant Commander Initiative Fund 
        and the Counter-Terrorism Fellowship Program, which would allow 
        combatant commands to seize opportunities for building 
        partnerships.

    Chairman Warner. Thank you very much.
    Admiral?
    Admiral Giambastiani. Thank you, Mr. Chairman, Senator 
Levin, and members of the committee. As always, it is a 
pleasure to be here before you today and also appear with 
Secretary England.
    I just have a couple of very brief comments. Our attempt 
here was to tackle challenges in a very broad manner for the 
QDR, making hard choices along the way. Some of them have been 
made, as the Secretary said, in the 2007 President's budget and 
some of them will be presented as we move forward in our 
program review and then in next year's presidential budget.
    We kept in mind the two customers while we were putting 
this together, one customer being of course the commander in 
chief and the President and the second one being the combatant 
commanders who execute the strategies and the missions that 
they are assigned. We made them first and foremost in our minds 
because they represent those troops.
    I recently returned from a trip, like many of you make 
constantly to Iraq, Afghanistan, and Kuwait. I know many of you 
made trips recently. I know you have, Mr. Chairman, along with 
many members of the committee, and it is always satisfying to 
me when I return from these trips to see the tremendous faith 
that our troops have in us that we will be supporting them 
fully back here. In my view, it also reinforces that we have 
the vector set correctly as we have described in this QDR. The 
determination that these troops show to conduct the mission at 
hand, their purposefulness, and their direction once again 
gives me great faith that we are moving in the right direction. 
I am proud to have been able to see them and present about 
1,500 coins to a lot of troops in a short period of time.
    One of the things that is different about this QDR is our 
force planning construct. I will not get into that now. We call 
it a refined force planning construct and we based it on three 
major capability areas, which I think is important for me just 
to review: homeland defense, the war on terrorism, irregular 
warfare, and then of course, conventional warfare.
    All of those account for both steady state and surge 
operations. I bring this up because it is important in this 
refined force planning construct to understand that we spent a 
significant amount of time looking at that. We did it early on 
in the game before we went through the QDR. Frankly, in 2001 we 
came up with the force planning construct after many months of 
deliberation. We refined it and worked through it before 
actually we went through the QDR this past year, and I think 
that is important.
    I emphasize that there is a considerable down payment in 
2007, as the Secretary mentioned, and of course the bulk of 
this will be contained in the 2008 budget.
    With that, sir, we are ready to take your questions.
    Mr. Henry. Sir, I do not have an opening comment.
    Chairman Warner. Thank you very much.
    We will proceed to a round of questions. I first say to my 
witnesses, not by way of apology, but this is just the real 
world: The Senate has on the floor a very important piece of 
legislation and a number of our colleagues are engaged in that 
at this time. Senator McCain has an amendment and for that 
reason he had to depart. Since I am going to remain here 
throughout this hearing, I would be happy to yield my position 
to you or other colleagues who are here that may have a short 
time commitment.
    Senator Levin. I also will be here. I am wondering if any 
of our colleagues have that need?
    Chairman Warner. Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman and 
Ranking Member Levin.
    I also want to add my welcome to the panel. I looked with 
interest at the QDR as setting the strategy for our military. 
Gentlemen, according to the QDR the DOD will continue to 
strengthen traditional allied operations in order to facilitate 
the sharing of military and security burdens around the world. 
Are you envisioning a series of bilateral and multilateral 
term-limited agreements or the development of formal 
institutions such as the North Atlantic Treaty Organization 
(NATO) dedicated to fighting the war on terrorism?
    Also, as the QDR makes clear that we will rely on our 
allies to achieve a unified effort, what responsibilities does 
the United States have in ensuring that the allied forces have 
adequate warfighting capabilities?
    Mr. Henry. I will go ahead and start that and perhaps the 
deputy or the vice chairman would like to add to my comments. 
First of all, the QDR does recognize the enduring value of the 
alliances and coalitions we have. As you well point out, some 
of those are formal multilateral ones and some, as we have with 
Japan, tend to be bilateral. We specifically acknowledge the 
contributions of the United Kingdom and Australia where they 
have been by our side in almost every operation that we have 
engaged in.
    But we see that as we go forward, rather than needing new 
formal multilateral alliances, there are different mechanisms. 
An example of that might be the proliferation security 
initiative, where we have over 70 countries coming together on 
a voluntary basis, each contributing the best they can to be 
able to stem the flow of weapons of mass destruction (WMD) or 
other illegal items in a proliferated world, driven by 
globalization that makes this easier.
    We think that is a good example of how we want to go 
forward. Obviously, for different operational needs we will 
engage those who would be willing to join us in a coalition 
effort.
    Senator Akaka. I recall that, in visiting some of the 
European countries in the past, that we, our country, helped 
them a lot in training and also in equipment. Will we be 
ensuring that the allied forces have adequate warfighting 
capabilities as well?
    Admiral Giambastiani. Senator Akaka, my first comment is 
that a very key component of this QDR is what we call 
increasing partner capacity. By partner we mean allied, 
coalition, or our friends. Mr. Henry discussed a couple of our 
bilateral initiatives, but let me discuss it more on the 
military level but I will get to the NATO piece right now.
    We have made a substantial commitment to NATO in the form 
of, first of all, dual-hatting my former position. Here in the 
Senate you confirmed my position as the first Supreme Allied 
Commander, Transformation, back in June 2003. We stood up this 
brand new command, of which the United States when it finally 
settles out at full operational capability, will actually have 
about 40 percent of the manning, but the commander and one 
other flag and general officer.
    The importance of that is because it is tied and dual-
hatted with the Commander of United States Joint Forces 
Command. That is a big initiative.
    The next part of it is that the United States has been a 
very strong proponent of establishing joint warfare training 
capabilities across the NATO alliance. In fact, now the entire 
alliance has come on board and has funded the creation of a 
joint warfare center with all types of construction going on, 
installation of information technologies, and manning in a 
variety of areas, located in Norway, Poland, Lisbon, and 
Portugal. This is very significant.
    Another piece of this is that on a bilateral basis from the 
United States side, for example, we have a huge international 
presence that most people are unaware of in Norfolk, Virginia, 
to help each of these countries in concept development and 
experimentation of warfighting principles. In June 2003 we had 
only about four to six countries located in Norfolk, Virginia. 
Today we have over 40. As a matter of fact, while we are 
speaking right now, we have a huge exercise sponsored by Joint 
Forces Command, called the Multinational Experiment No. 4. The 
actual senior leader seminar at the end of this experiment, 
probably has on the order of not only NATO but another 6 or 7 
countries, adding up to about 30 countries participating. It'll 
be done in Brussels for the European audience, to help bring 
them along.
    Those are the types of initiatives we are doing right now 
to bring our partner capacity in a big way. But this is not 
just NATO. It is also Australia, Singapore, Japan, and Korea. 
We have invited Pakistan. We have invited many other countries 
to participate in this, and many of them expressed great 
desire.
    Senator Akaka. As I said, I have witnessed part of this and 
it is a tremendous program. I was interested in the cost, but 
that will be for another question.
    Thank you very much, Mr. Chairman. My time has expired.
    Chairman Warner. Are there other colleagues at this time 
seeking recognition?
    Senator Levin. We are going out of order, if you need to go 
early.
    Chairman Warner. I am going to stay throughout.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me express my appreciation to our panelists for being 
here today as well. Secretary England, I was pleased that the 
Army agreed to reverse their original QDR and budget decisions 
recognizing that the Army recruiting could be successful. The 
Guard says that they are on track to reach 350,000 personnel. I 
am also glad that they are committed to finding the additional 
resources to pay for end strength if it rises above 333,000. 
The latest end strength number I was given had the Army Guard 
at 336,094, and that is as of today.
    I think we can all agree that it is absolutely critical, as 
the QDR points out, to have the Total Force ready, able, and 
capable, meaning properly manned and equipped. This morning, as 
the ranking member of the Personnel Subcommittee of this 
committee, I testified before the congressionally-mandated 
Commission on the National Guard and Reserves and I mentioned 
at that time about the Pentagon efforts to bring stability to 
the deployment schedule for the Total Force, the plans to bring 
deployment schedules down to 1-year of deployment and 5 years 
at home.
    Now, considering the long and extended deployment of the 
National Guard units at the beginning of the war and the strain 
put on the soldiers, families, jobs, and employers, I asked the 
commission to carefully analyze this proposal to see if it is 
reality-based on end strength and on the deployment. On page 76 
of the QDR under the section on, ``Reconfiguring the Total 
Force,'' and more specifically ``A Continuum of Service,'' DOD 
states: ``To fight the long war and conduct other future 
contingency operations, Joint Force Commanders need to have 
more immediate access to the Total Force. In particular, the 
Reserve component must be operationalized so that select 
reservists and units are more accessible and more readily 
deployable than today.''
    I have two questions and perhaps Mr. Henry might want to 
respond to it first. Which units are we referring to there, if 
you can help me with that in terms of the Total Force and the 
continuum of service; and how does the QDR statement square 
with the Pentagon's 1-year every 6-year proposal? I really want 
to know whether that can be looked at as reality-based, given 
what we have been through and what the numbers truly are.
    Admiral Giambastiani. Senator Nelson, I think I can address 
that. There are many Reserve component individuals, men and 
women, for example in the Air National Guard, who although the 
1 in 6 is our goal, you take some Air National Guard folks who 
work in airlift, tankers, and the rest. They come on Active-
Duty constantly. They will be on Active-Duty 2 weeks a month 
and they will do this continuously over long periods of time. 
They will be on call for special mission flights and the rest.
    In some of these Reserve specialty areas we simply do not 
see a change in how they are doing business. What we are really 
talking about here in the one-in-six is, for example, many of 
these Army brigade combat teams (BCTs) and other Army brigades, 
where what we want to do is not have to cross-deck, as we would 
say in the Navy, or cross-level in the Army, where we have to 
take individuals from one unit, move them over to another unit 
to make that unit whole, so that when we deploy the unit we go 
out with all of them, and then when this unit where we took 
people from have to go the next time around. We want to get out 
of that, which is why the Army initiative to fully equip and 
train all of these units right from the start makes great 
sense, so that you can get into a better rotation.
    We have had experiences where up to 40 percent of some of 
our National Guard BCTs have been cross-leveled from other 
units. We want to get away from that.
    For those skill sets where we generally rely on units as 
opposed to individuals or single crews to do certain things, 
that is really the rotational policy we are talking about, in 
more of the unit level. Does that make sense?
    Senator Ben Nelson. It does. I appreciate it.
    Secretary England, last week as we were looking at the 
marines I asked General Osman a question about the Marine Corps 
end strength. The proposal is to reduce the number from 180,000 
down to 175,000. That may not sound like a lot, but end 
strength has a significant impact on mission capabilities. I am 
very concerned that that may not be an appropriate reduction, 
that we may want to stay at the end strength that we are, given 
the operational tempo at the present time and not knowing what 
it is going to be in the future.
    Do you know whether the Marine Corps had adequate input to 
the QDR regarding that desired end strength and that proposed 
reduction?
    Secretary England. Senator, the 175,000 is the authorized 
end strength. Today they are up by 5,000 because of the war. 
But the projection is by 2011 that would come down again to 
175,000, obviously dictated by events on the ground. While that 
is the end objective, and the schedule is by 2011, our best 
projection at the end of the Future Years Defense Program 
(FYDP) at this time, it is not mandated, this will happen on 
some particular schedule. Rather it is our best projection of 
events on the ground of what we can do in terms of steady state 
as we go forward.
    There are efficiencies in the force. That is, we have been 
able to free up marines and replace marines with civilians, so 
we have in the Marine Corps, like the Army, been able to 
effectively grow the Corps in terms of its fighting strength. 
It is effectively larger today, even larger than the 180,000, 
when you think of the number of marines that are actually in 
the fighting force as opposed to clerical jobs, et cetera, that 
we have freed up in the past. As I recall from my Secretary of 
the Navy days, that was a couple of thousand marines right 
there.
    Again, it is not mandated. It is the objective in 2011, and 
events will dictate that drawdown and we will do what is 
reasonable and rational to do.
    Senator Ben Nelson. My time is up. Thank you, Mr. Chairman. 
Thank you.
    Secretary England. You are welcome, sir.
    Chairman Warner. I will ask a question or two and then turn 
to my colleague.
    Mr. Secretary, as you well know, you have to make 
assumptions in preparing a very comprehensive report like this, 
and it is important for the committee to know, how did you 
formulate the assumptions with regard to the threat in the out-
years? To what extent did you involve Ambassador Negroponte and 
his organization in helping you project out into the future and 
establish the parameters of what we can estimate to be the 
types of threat and the seriousness of the threats, therefore 
how best to equip the United States and train to meet those 
threats?
    Mr. Henry. I will go ahead and jump in, Senator. My remarks 
might be amplified later on. We first of all looked at a set of 
challenges that we faced at the beginning of the 21st century. 
Those are in the area of hastening the demise of terrorist 
networks and defeating the terrorist threat, defending the 
Homeland in depth, making sure that there is no acquisition or 
use of WMD by rogue powers, and then finally influencing 
countries at strategic crossroads.
    We did that in consultation with the IC. As you might be 
aware, the defense strategy, which also has a number of 
assumptions laid out in it, was completed before we actually 
started the work on the QDR and it was published in March 2005. 
That did a broad scan of what we had in front of us. The IC 
participated with that every step of the way.
    Then we came and as part of the QDR, looked at these 
challenging areas. As the Vice Chairman mentioned, we looked at 
them from a perspective of what did the commander in chief need 
as far as options in being able to respond for the national 
security and then what did the combatant commanders need as far 
as specific capabilities to be able to handle the tasking that 
would come down through the national command authority.
    As we set out to do and look at each of those capability 
areas, we brought the IC in. We had day-long briefings where 
they would lay out what the threat spectrum was before us, and 
then as we did the development in that we continued to 
communicate with the IC. They are going through a process, I 
believe it is referred to as the Quadrennial Intelligence 
Community Review (QICR), where they look at also a 4-year look 
at the IC. We married those efforts and then when we completed 
the brief we had consultations with the principal staff members 
on the Directorate of National Intelligence to make sure that 
we were also linked up there.
    At each step of the way we made sure that we were tightly 
coupled with the IC.
    Chairman Warner. I think that is a pretty comprehensive 
answer. Mr. Secretary, do you have anything to amplify that 
with?
    Secretary England. Senator, I just say that this was, as I 
commented in my opening statement, very comprehensive in terms 
of literally trying to engage all aspects of the Federal 
Government, our friends, and our allies. We took the best 
information and the best projections we could from the best 
minds in the Federal Government, our friends, and allies.
    Chairman Warner. Admiral?
    Admiral Giambastiani. Mr. Chairman, I'd like to reinforce 
exactly what Mr. Henry said. I think the important piece is not 
only engaging through Defense Intelligence Agency assessments 
across the IC, but the other part was bringing in the 
operational aspects from the geographic combatant commanders 
and having them bounce this against one another. In addition, 
early on in the process, back in early 2005, the Secretary 
signed out a QDR terms of reference in which we posted a series 
of challenges that were based on this intelligence information. 
Continually throughout the process we challenged those 
assumptions, if you will, those threats and risks that were 
listed, and we would revisit them for their validity. That is 
an important component of the process.
    Chairman Warner. I was going to ask that question, whether 
or not the combatant commanders had a voice, and you have 
reassured me that that is the case.
    Admiral Giambastiani. Yes, sir. As a combatant commander, I 
was as each of us were, and I wrote a letter to the Secretary 
of Defense on the areas that I thought we ought to be focusing 
on, and each of us did as a combatant commander, and we shared 
that with the Secretary, the Deputy, the Chairman, and the 
rest.
    Then of course, I turned around and changed hats when I 
came here in August after I was confirmed, and then had to go 
out and execute them.
    Chairman Warner. Let us address your second hat.
    Admiral Giambastiani. Yes, sir.
    Chairman Warner. That is, Vice Chairman of the Joint 
Chiefs. Was there full participation by the Joint Chiefs in 
this work process?
    Admiral Giambastiani. Yes, sir. Just to give you an 
example, this is probably the most unprecedented amount of 
military-civilian interaction I have seen in the three QDRs 
that I have participated in. I have been through all three of 
them at various levels, from a one star up now to the Vice 
Chairman. I had my staff go out and calculate how much time 
senior civilian/military: It is almost 6,500 man-hours of 
engagement.
    The group that the Deputy Secretary and myself chaired had 
involved in it the Vice Chiefs of all four Services. We had all 
of the Under Secretaries. We had a variety of other individuals 
such as Program Analysis and Evaluation (PA&E). We had the 
Comptroller, et cetera. So we had this group who we deliberated 
with continuously, and then we had various tank sessions, for 
example, where I went to the Joint Chiefs, we brought 
information in to them. Or the Joint Chiefs would have met on 
some issue and then we would feed it into what we called this 
Group of 12.
    This was an unprecedented amount of engagement between the 
combatant commanders and the chiefs. As part of this group we 
had the Deputy Commander for Special Operations Command (SOCOM) 
there with us on all deliberations because we focus so much on 
the special operations area. In addition, the Secretary and I 
invited in on numerous occasions combatant commanders to make 
presentations.
    Chairman Warner. The Secretary, you said?
    Admiral Giambastiani. The Deputy Secretary and myself.
    Chairman Warner. We will come momentarily to Secretary 
England. We want to have on the record the participation by 
Secretary Rumsfeld, at what juncture did he come in, perhaps 
did an overview, perhaps sent back queries to you, and then the 
final product of course bears his signature?
    Secretary England. Senator, we, the group of 12, basically 
report in to what we call the Senior Level Review Group (SLRG), 
and that is chaired by the Secretary and consists of the 
Service Chiefs and at different times all of the combatant 
commanders. The Secretary actually drove this from what we call 
the SLRG group, where he runs that group. The Secretary was 
actively involved in the direction and the decisions. We stood 
up information and tradeoffs at this group of 12, debated all 
the issues, and then took them up to the Secretary level along 
with the Service Chiefs and the combatant commanders, where 
they again were debated and discussed and decisions were 
reached, with the ultimate decision residing with the 
Secretary.
    Chairman Warner. To lay a foundation for this hearing, my 
last question, is this: We have gone through one of the most 
unusual budget periods that I have ever witnessed. Senator 
Levin and I have been here these 28 years, but we have never 
seen a succession of supplementals of the magnitude that we 
have had, the major part of those supplementals understandably 
necessary to meet defense requirements. The war, of course, was 
the principal funding item in each of these supplementals, but 
nevertheless there were other items in there that went to the 
new equipment for the forces, certain aspects of the personnel 
situation. They had other very important components.
    I do not say this by way of criticism, or warning, or 
threat. But I have talked to my good friend and longstanding 
colleague Senator Stevens, and he thinks there is going to come 
a time, and probably after the cessation of whatever period 
this current Afghanistan and Iraq requires such heavy drawdown, 
but at some point we are going to try and get back in the 
regular budget process, where the authorizers basically take 
the President's budget and it is inclusive of all the needs for 
the military department and then it goes to the appropriators 
after the authorizers' work.
    How did you deal with the current budget situation in 
relation to this look forward into the out-years? I hope you 
had an assumption that this type of supplemental funding was 
not something that would go on in subsequent years.
    Secretary England. Senator, first let me say the decision 
on the supplemental frankly is above my pay grade. That was a 
decision by the Office of Management and Budget (OMB) and the 
President and the leadership of Congress.
    Chairman Warner. I am not faulting or criticizing. I am 
just saying, you are trying to do a very difficult job of 
looking out into the years. One component is intelligence. 
Another component is what is the funding level that we are 
likely to have?
    Secretary England. We did not look at the QDR in terms of a 
supplemental. We did not consider a supplemental because a 
supplemental is war-related and this is a long-term strategic 
view.
    Chairman Warner. That is important. So you did not work on 
any assumptions that in times of war or otherwise you would 
suddenly have supplementals?
    Secretary England. No, sir. The QDR is a strategic level 
document. Obviously it is bounded by realism, but it is a 
strategic level document as opposed to a budget document. A 
budget is separate. This is a strategic look, and we then take 
the strategic view and we translate that into programs and to 
budget.
    During this whole time period we were not looking at the 
budget per se during the QDR, except as we went along in the 
QDR there were some aspects of the QDR we wanted to incorporate 
in the 2007 budget. It became a budget decision in 2007. But 
they are separate in terms of one is strategic and the other is 
the implementation of that strategic direction in the budget. 
There is no consideration of supplementals or anything of that 
sort, Senator.
    Chairman Warner. I just wanted that reassurance that that 
was not a component.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    On that subject, you may try to keep them separate, but I 
am afraid they are very clearly related, because if we are 
talking strategically about a long war that sounds strategic to 
me. What General Pace wrote seems to me is very true. He says 
``The daily life of the average American citizen reflects none 
of the hardships or shortages that we associate with a nation 
at war.'' As I think a newspaper put it, nobody in America is 
asked to sacrifice except our Armed Forces. We are not even 
paying for this beginning of a long war. We are just sending 
the bill to our children and our grandchildren. It seems to me 
it is unsustainable.
    Secretary Rumsfeld wrote a memo in October 2003 to the 
senior DOD leadership that said: ``We are putting a great deal 
of effort into trying to stop terrorists. The cost-benefit 
ratio is against us. Our cost is billions against the 
terrorists' cost of millions.''
    In the 2 years that would follow that statement we spent 
$160 billion on operations in Iraq and Afghanistan. Last month 
we got another supplemental request that would push the total 
of spending in connection with these operations to $122 billion 
in fiscal year 2006 alone. That is $10 billion a month.
    So this is not a sustainable path. The QDR says that ``The 
U.S. must constantly strive to minimize its costs in terms of 
lives and treasure while imposing unsustainable costs on its 
adversaries.'' That is in the QDR. I do not think any of us 
could tell the American people that that is what we are doing 
today.
    We have to start budgeting honestly, both for short-term 
and long-term reasons. Until these costs are included in the 
budget request and unless they go through the ordinary process, 
we are not engaged in honest budgeting here. I would reinforce 
what I think the chairman was making reference to, perhaps a 
little more sharply, but nonetheless I believe for QDR reasons, 
as well as short-term reasons we have to change this. This year 
again, we should ask the Budget Committee when this next budget 
comes up to include the cost that we expect will be actually 
laid out in the war, not just the ones that come in the budget 
request.
    Secretary England. May I respond, Senator?
    Senator Levin. Sure.
    Secretary England. First, understand the cost is high, but 
it is somewhere between 3.7 and 3.9 percent of gross domestic 
product, which I believe is the lowest it has ever been in time 
of war. It is a lot of money.
    Senator Levin. That is not the issue. The issue is whether 
we engage in honest budgeting, whether it is 3.7, 3.5, 3.2, or 
4.0 percent. It does not make any difference what percent.
    Secretary England. May I respond, Senator?
    Senator Levin. Sure.
    Secretary England. The question is, is it in the budget or 
the supplemental? If it is in the budget, today we are working 
on the 2008 budget. When you work on the 2008 budget, if you 
are talking about the wartime, we are trying to project 2 years 
ahead, as opposed to a supplemental where we are very close to 
the time of expenditures, we actually know what is being spent. 
I think you will find a supplemental is very supportable. Sort 
of the choice we have is very supportable, detailed data 
regarding the supplemental or much less data trying to project 
ahead. I am not sure there is a definitive answer, but I can 
tell you that the supplemental is much more realistic in terms 
of costing and trying to project ahead 2 years when we are 
uncertain about what will be happening in 2 years on the 
ground.
    Senator Levin. I am sure it is more realistic and 
definitive, but it has a huge disadvantage, which is that we 
are borrowing for it. We are not putting it into the mix of our 
Nation's priorities to match against resources. So it becomes 
irresponsible.
    Of course, there is always more detail the longer you wait 
in terms of putting together a budget. We have a 
responsibility, it seems to me, to pay for this war. We are not 
doing it. We are borrowing for it and one of the reasons is we 
are doing this by supplementals instead of through the ordinary 
budget process.
    Secretary England. Senator, there are pros and cons. The 
decision has been made to do the supplemental, so we are 
proceeding that way. But I think it depends on the strength of 
the supporting data, and the timing of that. That is the 
decision to be made.
    Senator Levin. Admiral, let me go to a more specific QDR 
question. The QDR says that the Department will stabilize 
Active-Duty end strengths of the Army and the Marine Corps at 
482,000 and 175,000 respectively, by fiscal year 2011. Relative 
to the Guard, the QDR would propose to reduce the Army Guard's 
end strength to 333,000, which has already been reversed, as 
Senator Nelson indicated.
    Two recent studies examined the strain on the Army. Each of 
these studies independently concluded that the Active-Duty Army 
is too small. The Commandant recently stated he is not sure 
that the Marine Corps end strength should be reduced below 
180,000 marines. The QDR talks about 175,000 as the stabilized 
figure. So the Commandant is launching his own study to 
reexamine the issue.
    Given what the facts and the reality are in this world, why 
does the Department believe that the Army and Marine Corps end 
strengths should be reduced and has the stress that the force 
is taking been taken into account in these QDR proposals?
    Admiral Giambastiani. Sir, the way I would address that is 
as follows. With regard to the Army, all of the rotations that 
we have had that have taken place have been done with both 
Active component, in general order, BCTs, for example, on the 
combat side, both Army Active component and National Guard, and 
now we are at a point where we expect the very last unit that 
is an old structure BCT--the First Brigade of the First Armored 
Division has just deployed to Tal Afar to relieve the Third 
Armored Cavalry Regiment. We expect that will be the last 
rotation of a non-modularized, non-changed unit.
    We are somewhere in 37 BCTs on the Active component side 
along with our modularity, and increasing the number, if you 
will, from a smaller number all the way up to 42 BCTs. There 
are a lot of numbers here, but the bottom line is we expect to 
be able to rotate on a continuous basis up to 14 Active 
component BCTs with that base. That is substantially larger 
than the 32 that we had before if you were doing a one-in-three 
rotation. Clearly, if you had to go to what we call in the Navy 
port and starboard, or one-in-two, which we do not want to do 
on the chiefs' side, you could come up with a large number of 
21.
    Now, if I extend that to the National Guard side and now 
take the 28 BCTs, use the one-in-six rotation I mentioned 
before, suddenly we are talking about a sustained level inside 
the Army of somewhere between 18 and 19 BCTs with one-in-three 
and one-in-six rotations. That then allows us to sustain this 
effort over a longer period of time with fully equipped and 
manned and trained units. That is something we just have not 
done before in the National Guard. That is why we are doing all 
this cross-leveling, and that is what created a lot of this 
strain.
    The same thing will occur inside the Active component side. 
We feel comfortable that we have created upwards of 30,000 to 
40,000 more, if you will, combat positions to populate this 
operational force on the Active side. On the National Guard 
side fully populating these units, plus creating for the very 
first time what we call a training, transient account, so that 
we can in fact have National Guard members who are treated just 
like they are in the Active component, so that we have folks 
that have this surplus of people that we have in these 
accounts. We are not just decreasing the numbers in the line 
units.
    We are working on making them a more operational reserve. 
Frankly, we have made great progress here. This is not a static 
situation. It is happening as we move on. That is part of what 
this modularity is.
    Senator Levin. Thank you.
    Chairman Warner. Thank you, Senator. I feel constrained. I 
must ask a supporting question to my colleague. You said a much 
more operational Guard and Reserve. Tell me, to what extent did 
you consult governors and their needs with regard to their 
Guard and implement the governors' input?
    Admiral Giambastiani. What I would tell you very honestly 
and forthrightly is that it was not well done, frankly, up 
front. It was done with the senior National Guard leadership, 
but sitting down and having this discussion occurred in the 
January-February time frame, near the completion of this. It 
should have been done earlier. There is always a balance that 
goes on, Mr. Chairman. But unfortunately, we are where we are 
right now.
    Chairman Warner. We need to cure that problem.
    Admiral Giambastiani. Yes, sir.
    Chairman Warner. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Thank you, gentlemen. Picking up perhaps where the chairman 
and the ranking member left off, the QDR lists four priorities 
for the time period: adapting capabilities and forces to better 
address priorities; defeating terrorist networks; defending the 
Homeland in depth; shaping the choices of countries at 
strategic crossroads; preventing hostile states and non-state 
actors from acquiring or using WMDs--all relatively new, at 
least in degree, from the previous QDR, given the nature of 
what has happened since that time.
    The major recommendations, I will not go through them all, 
but they are: increasing capabilities of Special Operations 
Forces (SOFs), they are increasing, improving, investing, 
strengthening, et cetera, all of which I think we would 
support.
    But the question is, is this affordable over the extended 
period of time, and in particular can we do all of this and 
finance all of the more advanced new weapons systems that were 
previously contemplated and have been put into the beginning of 
the budget process? Are there any major weapons systems that 
you are recommending be discontinued or not developed to 
respond to this changing set of priorities? Or is this all in 
addition to what we have been doing heretofore?
    Secretary England. Senator, this is about hard choices, 
frankly, because we understand there is not an unlimited amount 
of money. This is about hard choices. Like I said, we did some 
of the leading edge work in the 2007 budget, but we have yet to 
address the full implications of the QDR, because the QDR was 
finished at the end of the year and the budget was turned in at 
the end of the year. We only had literally the last couple 
months of the year to take the benefit of the QDR and try to 
impact the 2007 budget.
    Senator Dayton. Mr. Secretary, if you have made hard 
choices, what hard choices have you specifically made?
    Secretary England. That is why I say, most of them I 
believe are still in front of us because the QDR is still to be 
implemented. On the other hand, this is not about cancelling 
programs. It is about getting the right structure of forces to 
do this array of tasks that we need to do. We have made some 
recommendations in 2007 relative to programs, some older 
systems to retire, not to have some backup systems, and to 
finish production on other systems. You will continue to see 
some of that.
    I think most of it will be sort of below the waterline. You 
will not see this in terms of major programs, but you will see 
a lot of money being moved and that has already happened in 
2007, like, for example, in SOCOM. We have stood up a lot more 
in terms of special operations. That money came out of other 
programs that was otherwise programmed in the budget.
    You will continue to see adjustments. This is not an 
exercise in just trying to kill major programs. This is an 
effort to get the right balance across the United States 
military looking forward to address those missions that you 
just articulated that are in the QDR. That is the consensus 
again of the leadership at this time in terms of the best way 
to position our forces.
    We still have to deter conventional threats. The 
conventional end of this has not gone away, and those 
conventional forces, as we have found, are extraordinarily 
useful to us even in this war on terrorism. This is not like 
decimating some part of our budget, because every one of these 
systems we have looked at in terms of those four threats to 
America, and we will continue to do that.
    There will be hard choices for us and Congress, Senator.
    Senator Dayton. You are saying that those hard choices have 
not yet begun to be made. Let me read part of an editorial in 
the Washington Post and then I ask for any of you to respond: 
``One thing that military analysts agree on is that, even given 
the 40 percent increase in defense spending during the Bush 
administration, including 7 percent for next year, it will not 
be enough money to pay for the four dozen systems under 
development.''
    Everything is desirable. The question is, is it all 
cumulatively affordable? I guess you are saying that none of 
those hard decisions, and they are hard decisions, have been 
made by the administration and served as recommendations to 
Congress?
    Secretary England. Senator, I think some of those hard 
decisions have been made in the 2007 budget. I just hope they 
can be sustained here in Congress. Frankly, we are making 
recommendations in the 2007 budget, and they do change. Again, 
it will take the cooperation of the Senate with the DOD to 
start moving in a different direction. We are starting to move 
money as part of our budgeting process in response to the 
findings of the QDR and we will need to work together to be 
able to implement those. But it will take the cooperation of 
Congress also to do this.
    Senator Dayton. I recognize that. But again, trying to get 
specific, do you agree or disagree with the statement that the 
four dozen, if that is the right number, systems under 
development are not affordable, given the budget realities and 
despite the significant increases, and in addition to all the 
other additional things that you want to do in terms of special 
operations and the like? Are they affordable or are they not? 
If they are not, then how are you going to go about a process 
of recommending to us what we cannot afford?
    Secretary England. Senator, first of all, we will always 
submit to you a balanced budget. We do that every year and we 
go through this deliberative process within the Department to 
make decisions between programs and costs. When we present you 
a budget, that is a balanced set of programs that we provide 
every year to Congress, and we will continue to do that.
    I would just take issue with the Washington Post. If we 
need to make tradeoffs in programs, in either requirements or 
quantities, we will evaluate that relative to what the needs 
are of the DOD. This is a risk-based decision that we go 
through every year and we never have everything we want. We do 
a risk-based assessment of our needs, and we will continue to 
do that, Senator. That is the way the process works.
    Senator Dayton. Admiral or Mr. Henry?
    Mr. Henry. In support of what the Deputy said, some hard 
choices were made. I also take issue with the Washington Post. 
With the airborne laser, the decision was made to take that to 
a demonstration phase, but not to put any money in for 
production. The E-10, the E/A-10, the Air Force's future 
command and control platform and surveillance platform, a 
decision was made to take that to an engineering development 
stage, but not to move into production. The Joint Unmanned 
Combat Air System, that was totally restructured, scoped 
differently, opt some early wins and then looked at longer 
range, more robust capabilities.
    On the F-22, we relooked at that decision. We had down-
scoped that quite a bit in the last budget cycle. The QDR was 
to go back and look at that to ensure that that smaller size 
was correct. We looked at that, although we extended the 
production line 2 years to make sure we would not have a gap in 
fifth generation fighters. The decision was made on the second 
engine for the Joint Strike Fighter, to postpone that decision, 
not to get the second engine, but at this point in time we do 
not think that we know enough to make a decision to put that 
into production.
    So there were a number of points where we actually made 
decisions that, based on the capabilities we would need, a lot 
of it coming out from the lessons learned from operations we 
had been in and projecting what our needs would be in the 
future, that we needed more of the capability in the irregular 
warfare area and less in some of these traditional areas.
    Senator Dayton. That is very responsive to my question, so 
I thank you for that.
    Admiral, sir?
    Admiral Giambastiani. One other one I would add is we also 
came forward with a change in the aerial common sensor, which 
is an Army-led program. The important thing that you should get 
out of all of this is what is underlying in the Washington Post 
editorial is that there is always a bow wave of procurement out 
there.
    As the Deputy said, our job is to figure out how to put 
these together in a way so we can propose to Congress a 
balanced and reasonable program that gives the best we can for 
the defense of this Nation and to equip our men and women in 
the armed services. Our job is to come in with a balanced 
program and we do that every year. These are some examples.
    I think what we should not do is try to grade a QDR or 
anything else by the number of scalps that we can put on the 
wall up here, or the number of program kills that you can get. 
That is not the way we look at these things. It is how they are 
balanced. We can provide the capability across the spectrum 
that we have talked about.
    Senator Dayton. I thank you for doing that.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your testimony today and for all 
the work on the QDR. Admiral Giambastiani, you mentioned in 
terms of response to Senator Levin that the modularity buys us 
many more units and perhaps more capability, but in terms of 
personnel in those brigades, are they much less in number than 
the current brigades that we are transforming?
    Admiral Giambastiani. Senator Reed, the numbers of people 
that we have in here, or the manning, will be better. That is 
what I am saying.
    Senator Reed. Can you give me an idea of how many troops 
are in the old brigades, and how may troops in the new 
brigades?
    Admiral Giambastiani. It depends. For example, take a 
Stryker BCT. The number of infantry in those units is 
substantially larger--it could be 500, 600, or 700. I would get 
you specifics. I will take that for the record. But when we 
look at these, the numbers of infantry, or the trigger-pullers, 
are larger. If you will, we have populated units such as the 
Stryker BCTs with unmanned aerial vehicle reconnaissance 
capability.
    [The information referred to follows:]

    Pre-modular, or ``old'' brigades consisted of three maneuver 
(infantry or armor) battalions and a headquarters company. A pre-
modular heavy unit consisted of 1,075 soldiers. A pre-modular infantry 
unit consisted of 2,186 soldiers. Pre-modular force numbers only 
include assigned infantrymen.
    By contrast, modular force brigade combat teams (BCTs) are far more 
capable, consisting of two maneuver battalions; a reconnaissance, 
surveillance, and target acquisition squadron; a fires battalion; a 
brigade support battalion; a headquarters company; and company-sized 
elements of engineers, military police, and signal and military 
intelligence. The new modular force heavy unit consists of 3,787 
soldiers. The new modular force infantry BCT consists of 3,431 
soldiers. The increased force totals for the modular force BCTs 
highlight the fact that these new BCTs include not only infantrymen, 
but also engineers, military police, and military intelligence 
specialists who operate side-by-side with the maneuver forces.
    In a ``boots on the ground'' comparison, a pre-modular heavy (armor 
and infantry-centric) unit had 909 soldiers and a pre-modular unit 
consisting of light infantry and airborne/air assault had 2,016 
soldiers. In comparison, a new modular force heavy BCT has 603 
soldiers. A new modular infantry BCT has 1,006 soldiers. A third unit, 
the Stryker BCT, whose personnel numbers were previously embedded in 
the pre-modular brigade numbers above, are now counted separately in 
the modular force at a strength of 1,209 soldiers. When adding the 
numbers of this ``boots on the ground'' comparison, the pre-modular 
brigades totaled 2,925 and the new modular force totals 2,818.
    As you can see, there is not a simple answer when comparing pre-
modular and modular force structure. A line item comparison of end 
strength numbers does not accurately reflect functionality or 
capability. The most important point to remember is that because of the 
new unit structure and unit makeup, soldiers are performing multiple 
roles and bringing added capability. The modular force is more capable, 
more agile, and more lethal.

    Senator Reed. I am not talking about technology, but boots 
on the ground.
    Admiral Giambastiani. I am talking about the people who do 
these things. We have more, if you will, infantry. We have 
additional intelligence, surveillance, and reconnaissance (ISR) 
with them. We bring lots with them, so they are a more complete 
unit, when they go out, and we can use them, in addition to the 
numbers we have.
    Senator Reed. Can you not give me a notional figure that in 
an old brigade you would have 2,000 people----
    Admiral Giambastiani. I would like to give you a number, 
but I am going to take it for the record, and I will tell you 
why. Because so many of these brigades are different and trying 
to make them more alike and more unitized is what is happening 
right now. I do not have on the top of my head the exact 
numbers. I could look in my notes here and I might be able to 
get it for you.
    Senator Reed. But it seems to me you have adopted an end 
strength of 482,400 Army personnel and 175,000 marines. You 
have more brigades, so you have increased the number of units 
with a fixed number of people. You lose people because of your 
increased number of special operators within this fixed end 
strength. You pick up some because you have taken civilians and 
substituted them. So I am just wondering about the math, and 
how you come up with essentially more trigger-pullers in every 
brigade.
    Admiral Giambastiani. How I would describe it is this way. 
Like in life, when you want something more you just do not go 
out and buy more. You look at what you already have and you can 
redistribute, if you will, under that top line. That is one of 
the things we are doing. Temporarily, we have increased the end 
strength numbers authorized.
    Senator Reed. But we are not talking about that. We are 
talking about the QDR, 482,000 troops, modular brigades going 
forward.
    Secretary England. Can I step in a second? As I recall--and 
again, I will leave this to the Army; they are a little better 
than I am, Senator Reed. But as I recall, the Army has 40,000 
they are actually taking out of what I call the back end of the 
Army and into the front end of the Army. That is, there is a 
40,000 effective growth in the Army in terms of the combat 
force within the Army, both through conversions of civilians 
doing military jobs and also taking jobs that people were 
doing, say back office jobs, and now are going to be in combat 
units.
    So my understanding, each of these BCTs have actually 
increased fighting capability as opposed to the older 
configuration.
    Admiral Giambastiani. This is the redistribution I was 
talking about.
    Senator Reed. Mr. Secretary, I think it would be helpful, 
maybe just from a personal standpoint, if we could have the 
simple answer of the end strength numbers in these brigades. On 
the capability issue, I would hope they would be more capable.
    Admiral Giambastiani. We will get them for you.
    [The information referred to follows:]

    Prior to our transformation and current global force requirements, 
the Army was composed of multiple brigade formations assigned to a 
division centric force, based on large, robust, fixed organizations. 
The divisions were supported by functional brigades based on mission 
requirements. The combat brigade formations were composed of 
approximately 1,600 soldiers resident within the brigade. The brigade 
required the task organization of forces and units from the division in 
order to conduct combat operations. As part of our decisive effort 
within transformation, the Army is migrating capabilities previously 
found at divisions and corps to the brigade--our building block of 
combat forces in the future force. There will be three standard brigade 
formations: Heavy, Infantry and Stryker. Each type of brigade will be 
of a standard configuration and organization permanently task organized 
for combat. These brigades will be composed of 3,787 soldiers in the 
Heavy, 3,431 soldiers in the Infantry, and 3,903 soldiers in the 
Stryker brigade combat teams (BCTs). As the Army transforms to three 
standardized formations, these brigades will gain improved force 
packaging, sustainability, battle command, and situational awareness 
while retaining the same lethality as the larger, task-organized BCTs. 
These units will serve as the foundation for a land force that is 
balanced and postured for rapid deployment and sustained operations 
worldwide.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Reed. One reason for this line of questioning is 
when I am looking at the force planning construct for the QDR, 
it talks about, forces to defend the Homeland, operating in 
forward areas, swiftly defeating adversaries in two overlapping 
military commands, campaigns, and conducting limited numbers of 
military and humanitarian contingencies. I do not see nation-
building or conducting a 3-year counterinsurgency in this force 
planning project. One of the stresses on the force that we are 
seeing today is not a result of being unable with our present 
brigade forms to swiftly defeat an enemy. It is trying to 
rebuild a country and essentially conduct a----
    Admiral Giambastiani. Sir, part of the refined force 
planning construct would assume in what that 1-4-2-1 construct 
we have is, where we can do two major things at a time, if you 
will. One of them is considered to be this long-term, long 
duration, or what we are doing right now. That is an assumption 
that we have.
    Mr. Henry, do you want to elaborate on that a little bit?
    Mr. Henry. Yes, sir. With operational availability, which 
is a study effort that has been going on with the Joint Staff 
for the last 4 years to get a handle on what it takes to have 
sufficiency of the force, we put a lot of effort this year into 
understanding how we support the force planning construct.
    As the Vice Chairman was saying, one of the ones that we 
looked at was a prolonged irregular conflict in the future, to 
be able to support something the size of Iraq and Afghanistan 
combined, and yet still be able to do a conventional operation. 
We ran that through, and here is where we would probably take 
exception to you. The big lesson that we took out of the QDR is 
it is not about end strength numbers; it is about the 
capability of the force and what the force can do.
    As is pointed out in the QDR, as we go to these BCTs we 
increase the combat effectiveness of these by 46 percent over 
what we had last time. So if you just want to count the numbers 
and you want to freeze technology and you want to freeze the 
capability and the learning of the forces, then those numbers 
work. But as we look to the future and as we change the mix of 
the force, which has been a big problem, as we looked at it we, 
based on the first 3 years of work that we did, it appeared 
that the total end strength was about right, but the mix of 
capabilities and the mix of the force was not right, and that 
we needed to have more capability to be able to do these 
irregular type of operations.
    We spent the last year, specifically the Joint Staff and 
their analysis group, getting into the details, working with 
the combatant commanders, working with the Services, to 
understand how we had to change that mix. That is what you see 
in the QDR.
    There is another reason why we are able to do more than we 
have in the past and that is the concept of jointness and joint 
interdependency. In the past, we tried to get compatibility 
between the Services, but the lessons learned from both Iraq 
and Afghanistan is that one Service can put the other Service 
on its critical path for mission success. There is an 
opportunity to focus on core expertise and core capability, and 
we see that today in Iraq, where we have different Services 
helping out each other.
    Senator Reed. What capability do we have in Iraq today or 
that we will have in a few years that will allow us to cover 
more ground, train police officers better, and to counter 
improvised explosive devices (IEDs)? Is that what you are 
talking about when you say new capabilities?
    Mr. Henry. Countering IEDs is a near-term significant 
effort that we are doing right now. As you look at what the 
investment is in, it is in increasing civil affairs and having 
civil affairs officers. We are increasing that by one third; 
increasing psychological operations by one third, specifically 
those for communicating with the local populace, embedding 
those in the combat brigades so that they will have a coherent 
capability to do that locally. Those do make a difference.
    Admiral Giambastiani. Another significant one Senator, if I 
could just add, is the shift of taking conventional forces and 
training them to do foreign military training. Most of the 
embedded trainers that are in Iraq and Afghanistan typically 
would be almost all special forces in the past. We are now 
training, in fact using conventional operators to do this. We 
have a significant capability increase that we are bringing in 
the civil affairs.
    We have moved some of the artillery folks into the military 
police area. Like I said, we have a mix of the force so that we 
can get the right capability.
    We also have taken joint sourcing to a level that we have 
not done before. We have used a significant amount from both 
the Navy and the Air Force to make up for many of these, where 
they are not as stressed in a rotational way in some of the 
lesser utilized skill sets. We have done a lot of joint force 
sourcing, if you will.
    Senator Reed. My time has expired, but I remain skeptical 
that you can do all these things with 482,000 soldiers.
    Secretary England. Senator, we will get back with you on 
this subject. We also have asked General Schoomaker to get with 
you, because this has been through a lot of analysis and it 
does have the support of the Army leadership.
    Chairman Warner. Thank you, Senator, very much.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, and thank you for your service. Thank 
you for your work. I have to confess that listening to the 
exchanges, and reading the QDR, is a little bit confusing. 
There are so many issues that we can look back on over the past 
5 years that have been very troubling.
    The words are all here. We have had trouble getting up-
armored Humvees and body armor to our troops. We have had 
strategic and tactical challenges. We have had recruitment 
difficulties. We have had many problems, in addition to the 
larger considerations that both the chairman and Senator Levin 
mentioned about budgeting, which has been deeply troubling, the 
failure to pay for this war I think has grave implications for 
our Nation's security. We are ceding our fiscal sovereignty 
every single day and passing the costs and the dangers on to 
our children.
    You can read this and it says all the right stuff. You can 
quibble with some of the strategic statements and the 
operational recommendations. The problem is how do we really 
vet this.
    It is one of the frustrations, Mr. Chairman, that I think I 
have as a member of what I believe to be certainly the best-
functioning committee, a committee of great bipartisanship, of 
really very wise and comprehensive leadership on both sides of 
the aisle. At some point I think it would be useful to subject 
a document like this, as you have done internally, I assume, to 
the critiques of outside experts. In our 5-minute rounds we can 
barely scratch the surface. We cannot get to anything beyond 
just the most superficial. This is really serious business.
    It would be helpful perhaps to have some other witnesses 
who can help us really think through, whether or not we are 
headed in the right direction. The questions that Senator Reed 
was asking are of deep concern to many of us. The force 
structure does not look large enough to carry out this 
multitude of responsibilities.
    I do not really have a question so much, Mr. Chairman, as a 
concern, that it is different to exercise oversight 
responsibilities in the format in which information comes to 
us.
    The second point I would make is that there is a great deal 
in here, as there has been in the rhetoric of the 
administration for several years, that we are in a long war. I 
am not going to argue with the description, but it strikes me 
that it is a very strange long war when the vast majority of 
Americans are not being asked to sacrifice or share the 
sacrifice at all. This is the longest conflict I think we have 
had perhaps since the Revolutionary War with an All-Volunteer 
military. It is these young men and women and their leaders who 
are bearing the day-to-day burdens and making the sacrifices.
    We continue here to act as though we are living in a 
parallel universe, where we are cutting taxes almost on a 
regular basis, where we are spending like teenagers who stole 
our mother's credit card, where the defense budget is 
increasing but the accountability does not seem to be there for 
the financial burdens that that imposes.
    It is not any specific issue about the QDR, because I know 
that this has been a long and very challenging process. Putting 
it into context, I think we have a lot of questions.
    Mr. Secretary, you said it was above your pay grade and I 
appreciate that because these decisions are obviously being at 
the highest levels of the administration. But you are the 
person in the hot seat. I hope that we could perhaps get a 
slightly different perspective, maybe bring in some experts, 
some people who have been there, who have some constructive 
criticism, just to get a more rounded view of what our options 
are.
    The final thing I would like to say is that there is a 
great emphasis throughout here on interagency cooperation, 
rebuilding our alliances, all of which I agree with absolutely. 
It strikes me in looking at this QDR and with the work that we 
need to do throughout the government that we may have gone 
beyond the DOD QDR and we might need a broader look that brings 
to the table other stakeholders in the government, because we 
have had some really serious lapses. What happened with Katrina 
was really embarrassing. We have not yet sorted out what we 
need to be doing going forward.
    One recommendation I might make is that we try to figure 
out how we would have a broader process that would look at the 
elements of our security that are dependent upon the 
cooperation and participation of other agencies and personnel 
within our government, because we had a disastrous experience 
with the Coalition Provisional Authority, based on my 
observation, and I do not know, if we were to do it again 
tomorrow, what would be the alternative, how would we do it 
better, and what lessons have been learned.
    I thank our witnesses because they have labored mightily on 
behalf of this and there is food for thought in here. But I 
think that we need to put it in a broader context.
    Secretary England. Senator, if I could just respond for a 
minute. My only comment about being above my pay grade----
    Chairman Warner. Take all the time you want because it is 
an important foundation.
    Secretary England. Okay, thank you.
    Chairman Warner. I would just like to interject before you 
respond. Senator Levin and I shared similar concerns, not by 
way of criticism, but there may be other areas. We have written 
to the Government Accountability Office (GAO) to review this 
for the committee.
    Senator Clinton. Excellent, thank you.
    Chairman Warner. That review is going on. Also, Senator, 
Senator Levin and I will be considering such legislation as may 
be required to implement sections of the QDR, and in that 
context we will be reviewing it, in a sense, with a critical 
eye.
    Please respond to our colleague if you would, and if you 
would like to take time for a question or so we have adequate 
time.
    Senator Clinton. Thank you, Mr. Chairman.
    Secretary England. Senator, my comment about above my pay 
grade was just the decision in terms of is there a supplemental 
or is it in the base budget. I think that is a debatable point, 
but the decision has been made for a supplemental. I believe 
there are benefits in terms of knowledge in the supplementals 
because we can readily defend each of the costs, where we could 
not if we did it 2 years ahead of time. That is the fundamental 
issue. Again that is above my pay grade, but I actually believe 
it is better in terms of the discussion.
    This question of force structure. Again, force structure is 
not free. The most expensive part of the military is the 
people. When Vern Clark was the Chief of Naval Operations (CNO) 
and I was Secretary of the Navy, our view was we want every 
single sailor we need but not one more, because we cannot 
afford the one more all the time.
    So we have gone through a lot of analysis understanding and 
we have restructured all of the forces in terms of jointness 
and equipment, and we are spending a lot of money in terms of 
equipment. In the Army alone, the Future Combat System is over 
$100 billion in time. So you would hope that we would get a 
high degree of capability, effectiveness, and efficiency from 
those kind of expenditures.
    Frankly, the responsibility is on us to realize the 
benefits of those investments. I hope that in time the force 
continues to go down as we increase the effectiveness.
    By the way, in the United States Air Force, many missions 
now are unmanned, and the Air Force is planning to come down in 
manpower, the same as the Navy did. The Army is also now seeing 
the benefits of this investment. In my judgment, we are making 
informed decisions and the best ones that this entire 
leadership team across the DOD.
    Now, we have brought in all the other agencies of the 
Federal Government to participate. We have brought in friends 
and allies. There have been a lot of outside organizations that 
have reviewed and provided comment. But, if people provide a 
better insight we would be more than happy. Our job is to 
protect and defend America and we have no ``invented here'' in 
that regard.
    Regarding the long war, the Cold War was 40 years and the 
Israelis have been fighting terrorism for 60 years now. We have 
been in long wars before. This is a different kind of war that 
we fight. As a matter of fact, once in a while I almost feel 
like the term ``war'' is perhaps misleading because ``war'' 
conjures up a certain image of tanks, soldiers, artillery, and 
airplanes and that is not this war. Even in Iraq today, that is 
not the war. It is not about firefights at this point. It was 
for a very short period, but it is not at this point.
    This requires new thinking. We are trying to transform and 
I believe we have succeeded in transforming our thinking and 
our approach. This debate is very valuable. This is important, 
and we are not just going to do this QDR. This is a constant 
reassessment because the world is changing very rapidly. Our 
view is to keep reassessing and keep redirecting. We will need 
the help of Congress to do this. It is very hard, both within 
the Department and I know within Congress, to move into a 
different direction, because we have different suppliers, and 
different kinds of equipment. This is going to be a joint 
concerted effort by Congress and the DOD and, frankly, we 
welcome the dialogue, and we welcome the debate. Our objective 
is to end up with the best forces we can for our country.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you, Senator.
    Mr. Secretary, before Senator Clinton departs, you in your 
response were discussing firefights. Of course, you and I know 
there are firefights going on at every hour of every day in 
Iraq and in, unfortunately, Afghanistan. That was not the 
context in which you were using that term?
    Secretary England. No, I was using it more in the 
conventional warfare of artillery and large----
    Chairman Warner. Yes. There are a lot of them. I know you 
are currently concerned, as I am, about the daily activities 
and the risks taken by our troops.
    Secretary England. Absolutely, sir.
    Chairman Warner. Admiral Giambastiani, I was extremely 
pleased in the QDR to see that recognition was given for the 
need to provide a riverine capability for patrol, interdiction, 
and tactical troop movement on the inland waterways. I think it 
is a very important adjunct to have that in the Navy, 
particularly in this time of the war on terrorism, and 
terrorism takes so many multitudes of forms. As the Secretary 
said, it does not conjure up the extraordinary Armed Forces 
that confronted each other in World War II, Korea, Vietnam, and 
so forth. But nevertheless it is a bitter and costly war for 
those who fight it.
    I think that is a great idea. As a matter of fact, I 
remember when I was privileged, as Secretary of the Navy, going 
to Vietnam and actually seeing our riverine force in action in 
periods over there. They were extraordinary in the courage 
manifested by those individual boats and the difficulty and 
high risk patrols that they performed.
    I am interested in what sort of analysis preceded this 
requirement, and is this capability funded in the President's 
budget request, including the hardware, and the personnel?
    Admiral Giambastiani. First off, Mr. Chairman, I too, like 
you, am very pleased that we have been able to get the leading 
edge of the riverine force starting in 2007. There is a wedge 
of funding in 2007. I will have to get you the exact amount for 
the record, but frankly the remainder of the riverine force 
will be in the FYDP, which is stated in the piece here. We only 
have the leading edge and that is the leading edge of the 
investment.
    With regard to analysis of the force, this is a hard 
question to answer. Should there be two units of riverine 
forces or should there be three? The Navy's best guess, based 
on working, if you will, with SOCOM, is that two units of 
riverine forces would be satisfactory to conduct the type 
operations we currently foresee in the future, which may occur, 
frankly, in places like Iraq or, if you will, in other 
locations in littoral areas of the world with rivers and where 
all these large populations are.
    I would like to take that for the record and get back to 
you the exact analysis we did. It was a balance between how 
much capability we could put out there, how much we could 
equip, and how many people we needed with what we foresaw. We 
do not have a clear picture. That crystal ball out into the 
future is not perfect on how large this riverine force should 
be.
    [The information referred to follows:]

    1. The Navy's decision to invest in a riverine force is best 
captured by the chronology of events as depicted below:
    November 2004 -- U.S. Central Command (CENTCOM) Request for Forces 
(RFF) ``. . . suitable small craft capable of operating on . . . inland 
waterways'' [in support of Operation Iraqi Freedom].
    December 2004 -- Navy's response to the Joint Staff stated that the 
Service lacked the capability to meet the CENTCOM RFF, but would look 
``at the timeline associated for creating, training, and then 
subsequently deploying this type of unit.''
    May 2005 -- Navy included a modest Riverine Force capability (one 
200 man unit in the Active component) in Program Review 2007 (PR07), as 
briefed to Chief of Naval Operations (CNO).
    June 2005 -- A CNO-directed global war on terrorism working group 
recommended the PR07 Riverine Force capability be accelerated into 
fiscal year 2006/2006 and complemented by two similar units in the 
Reserve component in fiscal year 2007/2008. CNO directed implementation 
of this recommendation.
    August 2005 -- Fleet Forces Command (FFC) recommended establishment 
of a more robust Riverine Force capability (three operational units, 
all in the Active component, with appropriate Reserve component 
integration in the future).
    October 2005 -- USN-USMC Warfighter Talks -- ``Navy commits to 
assume In Zone requirement from USMC in March 2001.''
    November 2005 -- FFC proposed initial organizational, financial, 
and timeline requirements necessary to relieve the marines in March 
2007 and sustain the capability into the future.
    December 2005 -- Navy considered funding alternatives that could 
establish a deployable, combat-ready Riverine Force capability within 
15 months.

    2. In addition to the above chronology, the Navy has conducted a 
CNA study, released in December 2005, which will be provided via 
separate correspondence. Additionally, Navy Expeditionary Combat 
Command recently released its Riverine Concept of Operations brief, 
which will also be sent via separate correspondence.
                                 ______
                                 
    The requirement of Navy Riverine Warfare capability originated from 
a U.S. Central Command (CENTCOM) request for forces (RFF) in November 
2004. Initial riverine warfare capability studies during the Navy's 
Fiscal Year 2007 Program Review process produced the Integrated 
Sponsor's Program Proposal, creating the requirement for a Navy 
riverine warfare capability. The Navy, in collaboration with the Marine 
Corps and the Fleet Forces Command, refined the detains of Navy 
riverine warfare to initial requirements for three operational units. 
In November 2005, the Navy developed a plan for three Active component 
commands consisting of 712 personnel and 36 boats, at an estimated cost 
of $426 million over the Future Years Defense Plan (FYDP). The 2006 
Quadrennial Defense Review codified the requirement for riverine 
warfare capability and initial funding was proposed in the President's 
fiscal year 2006 Emergency Supplemental funding request and in the 
fiscal year 2006 President's Baseline Budget Submission for Defense.
    Initial fiscal year 2006 funding, through the fiscal year 2006 
emergency supplemental, requested $73.1 million for operations, weapons 
and ammunition procurement, and boat procurement. The total FYDP 
funding request for the riverine warfare capability--to include 
hardware, personnel, and support--is $128.2 million. Initial personnel 
for the riverine squadrons will come from existing Navy end strength 
levels and funding levels. Out-year personnel costs are programmed in 
the Navy's fiscal year 2007-2011 President's budget request.

    Chairman Warner. Fair enough, but let me say--and I am 
speaking only for myself--that folks who exercise a little 
leadership--and Senator Clinton very nicely spoke of the two of 
us, Senator Levin--if you want to accelerate this program, you 
have a champion up here.
    Admiral Giambastiani. I will pass that message along, sir.
    Chairman Warner. The opportunity is there. Secretary 
England, in your watch as Secretary of the Navy, the best job 
either of us ever had bar none, you and the CNO at that time 
envisioned this new class of ships to be called the littoral 
warfare. I would assume that the riverines would be a 
complementary adjunct to that concept of ship operation. Would 
I be correct?
    Secretary England. The Littoral Combat Ship is in the 
littoral and the riverine is actually even more in the rivers. 
So you are right, they are complementary. It just gets you into 
more waterways than otherwise are inaccessible to other ships 
in the United States Navy, where, by the way, we do need a 
presence in many situations. We did in Vietnam. That is still 
the case. Now, if anything, the enemy is more shadowy in these 
areas, so we have to be able to penetrate those areas. It was 
recognized in the QDR that this was a void that we had in the 
riverine. This was an effort to help fill that void.
    Chairman Warner. I am going to extend the time here just to 
make a personal observation. In my rather inauspicious little 
short-term career at the end of World War II, all of us younger 
enlisted guys, 17, 18, we all wanted to be on the patrol 
torpedo (PT) boats. They were the most exciting part of the 
Navy. Then later when I became Secretary, I was amazed to look 
around when I had by some lucky force gotten to this position, 
there were no more PT boats. They were scrapped immediately at 
the end of World War II, sunk and torn up. You could hardly 
find one.
    Years ago we were privileged here in the Senate to have 
Howard Baker as our leader of the United States Senate and he 
was a PT boat commander in World War II. We lamented the fact. 
He once said to me: ``if you want to put some of them in the 
budget, you are going to have my support.''
    You have my support, Admiral.
    Admiral Giambastiani. Yes, sir. Thank you very much.
    Chairman Warner. The Department recently published the 
Mobility Capability Study. It determined that projected 
military mobilities when fully mobilized and augmented by the 
Civil Reserve Air Fleet and the voluntary intermodal sealift 
agreement are adequate to achieve U.S. objectives with 
acceptable risk during the period from fiscal years 2007 to 
2013. Continued investment in the mobility system in line with 
the current Department priorities is required to maintain these 
capabilities in the future. The study made recommendations to 
conduct further studies, develop plans and strategies, and 
improve data collection and mobility models.
    Getting to the point, let's not have any more of this long 
debate up here.
    One of the great things that sets our military apart from 
the other militaries of the world is the extraordinary lift 
that we have. They all envy the fleet of helicopters, the C-
17s, the 130s. There is not an allied commander that comes 
through my office from time to time--and a great many of them 
do and I enjoy their visits--that doesn't marvel at our lift.
    What are the continued investments that are required to 
maintain this mobility in the future? What do you think about 
the immediate future as to the purchase of the C-17s and the 
130s? It is going to be up for debate in this committee in the 
weeks to come.
    Secretary England. Senator, I will ask the Vice Chairman 
here to comment in just a minute. But the decision after the 
study, particularly for our large lift fleet, is to continue 
with the planned program of 180 C-17s and also to complete an 
upgrade on the C-5As and the C-5Bs, and that at the heavy end 
that that would indeed satisfy the lift requirements of the 
United States Government. The plan is to complete the program 
at 180, with one proviso. The proviso is there are still some 
international countries that are interested in the C-17, so 
there could be sales for C-17s.
    Also, the other proviso is that there is a higher than 
anticipated usage of the C-17 because of the war, so we are 
actually using them at a higher rate. To maintain the 180 
effective level we will likely need a few more airplanes. But 
that will be an issue to be addressed, not in this budget but 
in the next. There could be somewhat over the 180 because of 
the increased usage and international sales, which is not a 
U.S. component.
    So the C-17 effectively 180 and that would be the end of 
the line is our recommendation, and also to upgrade the C-5As 
and the C-5Bs. Then in addition, there is the C-130 multi-year, 
so that is C-130 investment. There is also in the QDR a Light 
Cargo Airplane for intra-theater.
    You are absolutely right, lift is what makes us a unique 
expeditionary force around the world. We have addressed this as 
a very important element of the QDR. It was lift in terms of 
the QDR, then in the budget we started to translate that into 
actual budget detail in 2007 and in the FYDP.
    Chairman Warner. I will be working with colleagues on this 
committee to see what we can do to move along the 130 issues, 
which have been somewhat of an impediment thus far. They need 
careful oversight and addressing by this committee because 
there is a tremendous sum of money involved here. We had this 
concept that it was going to be built as a civilian aircraft 
and then transferred to the military and now we are going to 
build it as a military aircraft, where it should be. Anyway, 
that is history. But we are going to have to solve that 
problem.
    You did not mention that there would be an overseas market 
once we convert this thing to a military model. Is there not 
that option?
    Secretary England. You are talking about the C-17?
    Chairman Warner. The 130.
    Secretary England. Of course, there is a large 
international market for C-130s.
    Chairman Warner. You did not mention that and I did not 
know whether you omitted it, because the current line as it 
transitions from the concept of manufacture for the civilian 
market versus the military market, where it is now going to be 
and properly should be--you did not add on that and my ear 
picked up on it.
    Secretary England. That issue I believe, Senator, is the 
contracting approach we used on the C-130, changing that from 
the FAR.
    Chairman Warner. It is essential you do it.
    Secretary England. The Air Force is working to straighten 
out that contract.
    Chairman Warner. That is correct.
    Secretary England. They are reporting to you on their 
progress in that regard.
    Chairman Warner. They are doing it, no question about it.
    Secretary England. But you are right, there are 
international sales for C-130. There are also international 
sales now starting to occur for the C-17.
    Chairman Warner. Let us hope, because I think this 
committee will look at that figure that you had in there on the 
C-17 in the context of our markup session. We might have some 
slightly different views than you have.
    Senator Levin.
    Senator Levin. In addition to the views which the chairman 
mentioned, apparently General Moseley has asked to remove the 
C-5A retirement provision to free up funds to purchase more of 
the C-17s. Is that accurate?
    Secretary England. Senator, that is accurate. My view is 
that is not likely going to be the case. People are still 
looking at this issue. In my judgment it will turn out that we 
will upgrade the C-5s. The timing is such that we need the C-5 
capability. My expectation is we will continue with that 
program. I know there is some question and discussion about 
that, so perhaps it is not totally closed out. But at least my 
judgment at this time will be that we will proceed with the C-5 
and finish the program for the C-17 except for the situations I 
mentioned.
    Senator Levin. General Schwartz, the Transportation Command 
commander wants 20 more, is that accurate?
    Admiral Giambastiani. I think what he said was is that his 
view was we need to move forward with the tanker program called 
KCX, which should be not only a tanker but do airlift for us. 
They call it having floors and doors. That program is more 
important, I believe his quote was something like, the 181st C-
17, the 201st C-17, or the 221st C-17.
    Senator Levin. My understanding was that he said that we 
should buy 20 more C-17s.
    Admiral Giambastiani. I think you have to read all of his 
statement, which I did, and I think you will see that what he 
was talking about was if it is more important for us as a 
Nation to move on with the tanker.
    Secretary England. Here is the dilemma we have. Obviously, 
cost is an issue. We obviously have to spend the money wisely. 
But the tankers are very old today and when we bought the 
tankers we bought them at some high rate. When we start 
replacing the tankers, we will replace them at a relatively low 
rate, just because of affordability issues. If we start 
replacing those at 15 a year, we are going to need about 450; 
it will take 30 years just to replace the tankers we have 
today. The tankers are already about 30 years old, so that last 
tanker is going to be a very old airplane.
    It is vitally important that we start the tanker 
replacement program as soon as possible. It also gives us lift 
for commodity type packaging, not tanks and all but commodity 
type things. Today we use C-17s for all kinds of lift. We could 
be much more efficient with a combination of new tankers and C-
17s rather than more C-17s. There is only enough money to do 
one or the other and that becomes the dilemma.
    Senator Levin. Thank you.
    Secretary England, the report says on page 18 that ``In a 
number of recent operations the lack of needed authorities 
hindered the ability of U.S. forces to act swiftly and the 
process to get appropriate authorities has often taken months 
to achieve.'' What operations--what authorities do you need for 
our forces to act swiftly?
    Secretary England. Senator, we are going to come back to 
you on this, but I believe the grand total is 20 legislative 
requests to Congress, and only two of those have actually made 
it through DOD and the OMB and the rest are still going through 
the system. As I commented in my opening statement, one of them 
is just to be able to provide equipment to friends and allies 
that are fighting with us, to give us added flexibilities in 
terms of being able to equip forces who are in the fight with 
U.S. forces. I believe what we are going to ask for is about 
$100 million a year to be able to transfer that kind of 
equipment.
    Senator Levin. You do not have that authority now?
    Secretary England. We have it for Iraq and Afghanistan, but 
it is limited. We are going to try to expand that.
    Senator Levin. From the lessons of Katrina we learned that 
one of the problem areas had to do with the relationship 
between the National Guard and regular forces, two chains of 
command, one for the Guard, one under General Honore for the 
title 10 forces. Does the QDR analysis support a particular 
command relationship for future large-scale natural disasters, 
and if so, should we not focus on that?
    The report did say that DOD is going to work with DHS, DOS, 
and local governments to improve Homeland security capabilities 
and cooperation. In terms of the command relationship, where 
there are apparently these uncertainties and these dances that 
go on, which seem to me to be unconscionable--I am not trying 
to lay blame on anybody, believe me. I just think that there 
should not be ambiguity or doubt. There should not be an 
Alphonse and Gaston. When we have a natural disaster it ought 
to be clear who has what responsibilities and I do not think 
that was the case relative to Katrina.
    Are you going to be proposing clarification of these 
relationships?
    Secretary England. Senator, I believe the answer to that 
is, it is not in the QDR, but it will be in the lessons learned 
and recommendations out of Katrina, because there are all these 
different circumstances. Sometimes the Guard is called up by 
the governor and it is clear it is by the governor. Other times 
they are under our command. There is only confusion when they 
are called up and we have both Active Forces and Guard Forces.
    Senator Levin. There also seems to be confusion as to what 
kind of a request is required. I know the chairman is 
particularly interested in this subject, too.
    Secretary England. Senator, it is being addressed and there 
will be recommendations in that regard. I know that is being 
discussed as part of the lessons learned out of Katrina. I 
believe it will be in that venue rather than in the QDR.
    Admiral Giambastiani. The military and the civilian side 
have both played heavily in this inside the Department and 
working it with the National Guard to come out to what we 
consider to be some answers as a result of this. We will be 
working very hard on these lessons learned. This was clearly 
one of the lessons learned.
    Senator Levin. Admiral, the law lays out as one of the 
principal aims of the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in the 
national defense strategy at a low to moderate risk. Then it 
says also that ``The Chairman of the Joint Chiefs shall prepare 
and submit to the Secretary of Defense the Chairman's 
assessment of the review, including the Chairman's assessment 
of risk.''
    Apparently General Pace's assessment of risk does not state 
whether the risk is low, moderate, or high. How do you assess 
the risk? Is it low, moderate, or high?
    Admiral Giambastiani. First of all, you are referring to 
General Pace's answer that is attached to the QDR report?
    Senator Levin. Yes.
    Admiral Giambastiani. It is in the back of the QDR report, 
and in fact what we typically do is when we get into specifics, 
which are classified, is we normally send them to Congress 
separately. This is the assessment that the Joint Chiefs came 
up with of where we feel the QDR meets the strategy.
    Now, I would have to specifically go in here and take a 
look at what we are talking about.
    Senator Levin. Is there an overall assessment of the 
review?
    Admiral Giambastiani. The assessment is that as stated on 
pages A4, sir.
    Senator Levin. Is there an assessment of the risk? Does it 
ever say low or moderate, which is what is required? One of the 
principal aims of the QDR according to the law that creates it 
is that it is supposed to give us an assessment as to----
    Admiral Giambastiani. Here is our assessment, sir, and I am 
just going to read it because I think it accurately describes 
where we chiefs came down on this: ``We cannot accurately 
characterize the security environment in 2025. Therefore, we 
must hedge against this uncertainty by identifying and 
developing a broad range of capabilities. Further, we must 
organize and arrange our forces to create the agility and 
flexibility to deal with unknowns and surprises in the coming 
decades.
    ``This review has carefully balanced those where risks 
might be taken in order to provide the needed resources for 
areas requiring new or additional investment. Today the armed 
forces of the United States stand fully capable of 
accomplishing all of the objectives of the national defense 
strategy, securing the United States from direct attack, 
securing strategic access, and the rest. These recommendations 
contained in this report provide future capability, capacity, 
and flexibility to execute these assigned missions while 
hedging against the unknown threats of 2025.''
    That is exactly how we stated our dealing with the risk 
that exists out there in an unclassified fashion.
    Senator Levin. But you do not give an overall assessment as 
to whether----
    Chairman Warner. Could I interrupt you a minute?
    Admiral Giambastiani. Yes, sir.
    Chairman Warner. There is a classified annex that has been 
provided our committee and in that you will find, I think, the 
responses.
    Admiral Giambastiani. That is what I was referring to, Mr. 
Chairman.
    Senator Levin. It does not give the overall assessment. I 
do not want to say what it says.
    Admiral Giambastiani. Yes, sir, and I would prefer not to 
say what it says.
    Chairman Warner. We can adjourn this session. We have made 
provisions to go to SR-222 for a closed session. I am perfectly 
happy to go over there and explore this question with you with 
some thoroughness.
    Senator Levin. Would you agree that you are required to 
give us an overall assessment, either in the classified or 
unclassified world as to whether the overall--an overall 
assessment as to whether the risk is low, moderate, or high? Is 
that what you understand the law to require?
    Admiral Giambastiani. Yes, sir. I would have to reread the 
exact words, but I am pretty sure that what you said is 
accurate.
    Senator Levin. Mr. Chairman, shall I take a few more 
minutes?
    Chairman Warner. Yes.
    Senator Levin. On the D5 missile, the QDR proposes to field 
within 2 years an initial capability to deliver conventional 
warheads using the Trident D5 missile on ballistic missile 
subs. Those D5 missiles today carry nuclear warheads and there 
is a real question as to whether we are creating a very 
dangerous ambiguity if we proceed to have on a boat either D5 
conventional or D5 nuclear. I am wondering from an arms control 
perspective and from a security perspective--if other countries 
are not clear as to whether or not a launch is a nuclear or a 
conventional launch it creates huge dangers.
    I would only point to the Norway launch of a missile in the 
1990s, where in this case there was a notification which was 
not fully disseminated in time and apparently the Russians came 
close to launching a retaliatory strike just because there was 
a lack of clarity. That is a different issue there. It had to 
do with whether there was enough time for notice.
    Apparently the whole goal of a prompt global strike, which 
is driving this move to conventional strike on the D5 missiles, 
is to be able to strike anywhere in the world in less than 60 
minutes, and a notification protocol it would seem to me might 
defeat that very purpose. Without a notification protocol, you 
enlarge this ambiguity, which could be, to put it mildly, 
dangerous.
    Can you provide us all the studies and analyses which have 
been conducted which address or discuss the issues which are 
associated with this proposal? Could you give us also a list of 
ongoing studies and additional studies that are planned 
relative to this proposal? Could you do that for the record?
    [The information referred to follows:]

    The DOD has always taken seriously the issue of potential 
misinterpretation in the employment of ballistic missiles and weapon 
systems capable of delivering both nuclear and conventional munitions.

        <bullet> We have a long history of ballistic missile test 
        launches; since the 1960s, the United States has conducted over 
        1,300 ballistic missile test launches, from both land- and sea-
        based systems, without incident.
        <bullet> The notification process with Russia has served us 
        well.

    We recognize that, as our capabilities change to meet the 
challenges of the current strategic environment, we need to look 
closely at measures to comprehensively address the question of 
ambiguity. To date we have been very open in our discussions and we 
intend to remain open about what we are doing.

        <bullet> Through open congressional hearings, bilateral talks, 
        and other fora, we will make others aware of our plans and 
        concept of operations.
        <bullet> The Russians and Chinese are already well aware of the 
        purpose of the Conventional Trident Modification (CTM).

    A key factor in the potential for misinterpretation of a CTM launch 
will be the geopolitical context at the time. Any country that detects 
a launch and tracks the trajectory of the warheads (currently, very few 
countries can) will first consider the geopolitical situation as it 
evaluates whether or not the launch poses a threat.
    The 1995 launch of a Norwegian sounding rocket is an historical 
example of how Russia responded to an ambiguous incident. Russian 
military professionals and senior national leadership carefully 
analyzed the situation, identified inconsistencies with an actual 
attack, and initiated no response.

        <bullet> The 1995 incident serves to reinforce the perception 
        that both the United States and Russia do not expect a ``bolt 
        out of the blue'' attack, and will view an unexpected launch in 
        the geopolitical context at the time.
        <bullet> Regarding the Norwegian rocket incident, Major General 
        Vladimir Dvorkin (Director, Strategic Rocket Forces Fourth 
        Central Scientific Research Institute, Ministry of Defense of 
        Russia), stated: ``No [Russian] president, no matter what 
        president it is, will ever make a decision about launch-on-
        warning based on information about one rocket or missile or 
        even two or three missiles. I don't think that there are 
        sufficient grounds for Americans to be concerned or worried 
        about our command and control system.''

    Observable operational measures to further mitigate any risk of 
misinterpretation will include:

        <bullet> Selection of appropriate launch points and ballistic 
        trajectories to avoid overflight whenever possible.
        <bullet> Command and control procedures for CTM that differ 
        from procedures for nuclear-armed Trident missiles.

    DOD is also exploring additional transparency measures to reduce 
ambiguity. These may include advance notification to leaders of 
selected countries.

        <bullet> Russia is the country about which we would be most 
        concerned in the near term.
        <bullet> Fortunately, we have a robust set of communication 
        links between senior U.S. leaders (E.g. POTUS, VP, SecDef, 
        etc.) and their Russian counterparts.
        <bullet> We have planned, or in work, additional communications 
        links with senior Russian officials.

    Regarding studies over the past 2 years, DOD has examined a variety 
of concepts to fill the gap in our offensive capability.

        <bullet> For example, a Prompt Global Strike concept of 
        operations study, completed in 2004, included a concept for a 
        Common Aero Vehicle (CAV). The concept of operations for CAV 
        addresses issues regarding misperception. Many of the issues 
        identified in the concept of operations study concerning the 
        CAV are also relevant to CTM.
        <bullet> A similar study specifically focused on CTM has been 
        initiated. An April 2006 Defense Policy Board (DPB) review of 
        Conventional Trident recently reported its findings to the 
        Secretary of Defense. The DPB review concluded the potential 
        for misinterpretation can be successfully managed, and 
        recommended that the CTM program be pursued with high priority.

    We have a significant effort underway to refine our draft concept 
of operations for CTM and to implement appropriate measures to mitigate 
any risk of misinterpretation.

        <bullet> USSTRATCOM has conducted a variety of seminars, 
        analysis efforts, and initiatives to assess all aspects of CTM 
        to include mitigating the potential for misinterpretation.
        <bullet> Over the past year, DOD has had outside advisory 
        groups of distinguished individuals from government, industry, 
        and the scientific community, such as the JASON Group and the 
        USSTRATCOM Senior Advisory Group, review options and DOD's 
        evolving plans related to the Conventional Trident program.
        <bullet> Drawing from the previously described body of work, 
        USSTRATCOM and OSD are currently assessing which of the many 
        steps available to mitigate the potential of misperception are 
        appropriate. As an initial step we are beginning to develop an 
        international engagement plan to inform and educate our 
        friends, allies, and others.

    Admiral Giambastiani. From the policy side, we are going to 
let Mr. Henry answer that. Then I am going to talk to you about 
START accountability and a few other things.
    Mr. Henry. As part of the nuclear posture review, we spoke 
of a new triad--it was both responsive infrastructure, 
defensive capabilities. In the area of offensive capabilities 
we spoke to not just the massive retaliation on a nuclear 
basis, but to be able to have advanced conventional strike 
capability, which this falls into, and then also perhaps non-
kinetic capabilities.
    You are right, there is an issue of ambiguity, one that can 
be handled with protocols if you were going to use these 
against certain nations. There are many nations where you might 
choose to use this or you might actually use it, not against a 
specific nation but against a terrorist organization due to its 
responsiveness. Protocols would not always necessarily be 
appropriate.
    We have dealt with these issues in the past of ambiguity. 
We have a long history of dual capable aircraft and we have 
worked out these issues. We would be happy to provide you the 
work that we have done. We do not necessarily think that this 
is new territory.
    Senator Levin. I don't think that the analogy to dual 
capable aircraft is a particularly good one. You can call back 
that aircraft.
    In any event, has the State Department been consulted on 
this proposal?
    Mr. Henry. Yes. As we mentioned, in doing the QDR the State 
Department was part of the initial discussions of what the 
capabilities were, and then they have fully reviewed the QDR 
report and this represents a U.S. Government----
    Senator Levin. I know that, but does the State Department 
have any qualms about this?
    Mr. Henry. When working with them, they did not raise any.
    Senator Levin. This will be my final question. Please 
answer this for the record. Could you request from the State 
Department any studies that they have done? We could make that 
request, but it would be more direct, since you know what we 
are talking about. Please request from the State Department to 
give us any studies that they have undertaken on the political, 
treaty, and policy ramifications of this recommendation? Would 
you be willing to do that?
    Mr. Henry. Yes, sir.
    [The information referred to follows:]

    The Department of State supported DOD efforts during the 2006 QDR 
and has participated in ongoing interagency activities regarding the 
CTM program. The Department of State has not conducted, separately, any 
independent reviews, studies, or analyses on CTM proposal outside of 
day-to-day policy, arms control, and treaty responsibilities related to 
the effort.

    Senator Levin. Thank you, Mr. Chairman.
    Admiral Giambastiani. I might mention, Senator Levin, that 
the other piece that we need to remember about the conventional 
Trident compared to the strategic one is that all of these 
submarines and their capabilities are START-accountable. They 
are under an inspection regime, which is an important part of 
this, so that everybody knows and there is transparency here in 
this regime.
    Senator Levin. I do not think inspection is the issue.
    Admiral Giambastiani. Sir, I understand your question, but 
I just want to make sure that----
    Senator Levin. Inspection will prove the ambiguity.
    Chairman Warner. We have had a good hearing and I want to 
thank the witnesses. I want to particularly say, Mr. Henry, I 
have admired you from afar and I do not doubt that you have put 
in maybe 2 years on this. How long have you put in working on 
it?
    Mr. Henry. I am just part of a dedicated team that works 
throughout the Department, that has made a difference. It would 
not be proper not to acknowledge the leadership of both the 
vice chairman and the deputy and the critical difference that 
they made in the product that we have here.
    Chairman Warner. I am not suggesting that, but----
    Mr. Henry. I did not assume you were.
    Chairman Warner. --but I compliment everybody. But having 
served in the Department, I know the value of someone like 
yourself who is given a specific assignment and with a team of 
people working. You have done a good job.
    Mr. Henry. Thank you, Mr. Chairman.
    Secretary England. Mr. Chairman, I will second that.
    Chairman Warner. To show you how good it is, we are going 
to submit to you probably 30 or 40 questions for the record to 
answer.
    Senator Levin. Given your response, yes, I think it is 
going to probably double.
    Admiral Giambastiani. I would also second that motion.
    Senator Levin. For the record, since we are asking for the 
record: Mr. Secretary, you talk about efficiencies and not 
spending money unwisely. We have two programs going, one Army 
and one Air Force, for Light Cargo Aircraft. If you could let 
us know for the record how that complies with jointness, it 
would be most appreciated.
    [The information referred to follows:]

    We are developing a joint approach to the Army and Air Force 
efforts with respect to a medium range, light cargo aircraft. The 
Department intends to resolve the separate efforts this month and, if 
appropriate, combine these programs to form a Joint Cargo Aircraft 
program. The Department is working to further define the joint 
requirements and develop a single sustainment process for the final 
aircraft.

    Chairman Warner. Thank you very much. I'd like to place the 
QDR Report into the record at this point.
    [The report referred to follows:

    [GRAPHIC] [TIFF OMITTED] 66640.001
    
    [GRAPHIC] [TIFF OMITTED] 66640.002
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [GRAPHIC] [TIFF OMITTED] 66640.005
    
    [GRAPHIC] [TIFF OMITTED] 66640.006
    
    [GRAPHIC] [TIFF OMITTED] 66640.007
    
    [GRAPHIC] [TIFF OMITTED] 66640.008
    
    [GRAPHIC] [TIFF OMITTED] 66640.009
    
    [GRAPHIC] [TIFF OMITTED] 66640.010
    
    [GRAPHIC] [TIFF OMITTED] 66640.011
    
    [GRAPHIC] [TIFF OMITTED] 66640.012
    
    [GRAPHIC] [TIFF OMITTED] 66640.013
    
    [GRAPHIC] [TIFF OMITTED] 66640.014
    
    [GRAPHIC] [TIFF OMITTED] 66640.015
    
    [GRAPHIC] [TIFF OMITTED] 66640.016
    
    [GRAPHIC] [TIFF OMITTED] 66640.017
    
    [GRAPHIC] [TIFF OMITTED] 66640.018
    
    [GRAPHIC] [TIFF OMITTED] 66640.019
    
    [GRAPHIC] [TIFF OMITTED] 66640.020
    
    [GRAPHIC] [TIFF OMITTED] 66640.021
    
    [GRAPHIC] [TIFF OMITTED] 66640.022
    
    [GRAPHIC] [TIFF OMITTED] 66640.023
    
    [GRAPHIC] [TIFF OMITTED] 66640.024
    
    [GRAPHIC] [TIFF OMITTED] 66640.025
    
    [GRAPHIC] [TIFF OMITTED] 66640.026
    
    [GRAPHIC] [TIFF OMITTED] 66640.027
    
    [GRAPHIC] [TIFF OMITTED] 66640.028
    
    [GRAPHIC] [TIFF OMITTED] 66640.029
    
    [GRAPHIC] [TIFF OMITTED] 66640.030
    
    [GRAPHIC] [TIFF OMITTED] 66640.031
    
    [GRAPHIC] [TIFF OMITTED] 66640.032
    
    [GRAPHIC] [TIFF OMITTED] 66640.033
    
    [GRAPHIC] [TIFF OMITTED] 66640.034
    
    [GRAPHIC] [TIFF OMITTED] 66640.035
    
    [GRAPHIC] [TIFF OMITTED] 66640.036
    
    [GRAPHIC] [TIFF OMITTED] 66640.037
    
    [GRAPHIC] [TIFF OMITTED] 66640.038
    
    [GRAPHIC] [TIFF OMITTED] 66640.039
    
    [GRAPHIC] [TIFF OMITTED] 66640.040
    
    [GRAPHIC] [TIFF OMITTED] 66640.041
    
    [GRAPHIC] [TIFF OMITTED] 66640.042
    
    [GRAPHIC] [TIFF OMITTED] 66640.043
    
    [GRAPHIC] [TIFF OMITTED] 66640.044
    
    [GRAPHIC] [TIFF OMITTED] 66640.045
    
    [GRAPHIC] [TIFF OMITTED] 66640.046
    
    [GRAPHIC] [TIFF OMITTED] 66640.047
    
    [GRAPHIC] [TIFF OMITTED] 66640.048
    
    [GRAPHIC] [TIFF OMITTED] 66640.049
    
    [GRAPHIC] [TIFF OMITTED] 66640.050
    
    [GRAPHIC] [TIFF OMITTED] 66640.051
    
    [GRAPHIC] [TIFF OMITTED] 66640.052
    
    [GRAPHIC] [TIFF OMITTED] 66640.053
    
    [GRAPHIC] [TIFF OMITTED] 66640.054
    
    [GRAPHIC] [TIFF OMITTED] 66640.055
    
    [GRAPHIC] [TIFF OMITTED] 66640.056
    
    [GRAPHIC] [TIFF OMITTED] 66640.057
    
    [GRAPHIC] [TIFF OMITTED] 66640.058
    
    [GRAPHIC] [TIFF OMITTED] 66640.059
    
    [GRAPHIC] [TIFF OMITTED] 66640.060
    
    [GRAPHIC] [TIFF OMITTED] 66640.061
    
    [GRAPHIC] [TIFF OMITTED] 66640.062
    
    [GRAPHIC] [TIFF OMITTED] 66640.063
    
    [GRAPHIC] [TIFF OMITTED] 66640.064
    
    [GRAPHIC] [TIFF OMITTED] 66640.065
    
    [GRAPHIC] [TIFF OMITTED] 66640.066
    
    [GRAPHIC] [TIFF OMITTED] 66640.067
    
    [GRAPHIC] [TIFF OMITTED] 66640.068
    
    [GRAPHIC] [TIFF OMITTED] 66640.069
    
    [GRAPHIC] [TIFF OMITTED] 66640.070
    
    [GRAPHIC] [TIFF OMITTED] 66640.071
    
    [GRAPHIC] [TIFF OMITTED] 66640.072
    
    [GRAPHIC] [TIFF OMITTED] 66640.073
    
    [GRAPHIC] [TIFF OMITTED] 66640.074
    
    [GRAPHIC] [TIFF OMITTED] 66640.075
    
    [GRAPHIC] [TIFF OMITTED] 66640.076
    
    [GRAPHIC] [TIFF OMITTED] 66640.077
    
    [GRAPHIC] [TIFF OMITTED] 66640.078
    
    [GRAPHIC] [TIFF OMITTED] 66640.079
    
    [GRAPHIC] [TIFF OMITTED] 66640.080
    
    [GRAPHIC] [TIFF OMITTED] 66640.081
    
    [GRAPHIC] [TIFF OMITTED] 66640.082
    
    [GRAPHIC] [TIFF OMITTED] 66640.083
    
    [GRAPHIC] [TIFF OMITTED] 66640.084
    
    [GRAPHIC] [TIFF OMITTED] 66640.085
    
    [GRAPHIC] [TIFF OMITTED] 66640.086
    
    [GRAPHIC] [TIFF OMITTED] 66640.087
    
    [GRAPHIC] [TIFF OMITTED] 66640.088
    
    [GRAPHIC] [TIFF OMITTED] 66640.089
    
    [GRAPHIC] [TIFF OMITTED] 66640.090
    
    [GRAPHIC] [TIFF OMITTED] 66640.091
    
    [GRAPHIC] [TIFF OMITTED] 66640.092
    
    [GRAPHIC] [TIFF OMITTED] 66640.093
    
    [GRAPHIC] [TIFF OMITTED] 66640.094
    
    [GRAPHIC] [TIFF OMITTED] 66640.095
    
    [GRAPHIC] [TIFF OMITTED] 66640.096
    
    [GRAPHIC] [TIFF OMITTED] 66640.097
    
    [GRAPHIC] [TIFF OMITTED] 66640.098
    
    [GRAPHIC] [TIFF OMITTED] 66640.099
    
    [GRAPHIC] [TIFF OMITTED] 66640.100
    
    [GRAPHIC] [TIFF OMITTED] 66640.101
    
    Chairman Warner. We will adjourn to room SR-222 for a 
classified continuation of this hearing.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                           acquisition reform
    1. Senator McCain. Secretary England, one of the recommendations of 
the recently released Defense Acquisition Program Assessment (DAPA) 
report, is to establish a new acquisition command lead by a four-star 
general or flag officer for each Service, who would report to the 
Service Chief and Senior Acquisition Executive of the military 
department.
    I would like to hear your thoughts regarding the recommendations of 
the DAPA panel, especially on the recommendation to create this new 
general or flag officer position.
    Secretary England. Our focus must always be on delivering 
capability to warfighters and the entire Department of Defense (DOD) is 
looking at how to improve our ability to do that right now. I think 
it's important, however, to first take on policy, process, and resource 
issues before deciding what the most effective organizational structure 
might be. Deciding on the organization first might presuppose a non-
optimal solution.

    2. Senator McCain. Secretary England, the Service Chiefs now have 
responsibility for the budgets and requirements generation process; how 
will adding the Service Chiefs into the acquisition process improve the 
process?
    Secretary England. When I was Secretary of the Navy, I certainly 
felt the Department of the Navy budget was my responsibility subject to 
the authority, direction, and control of the Secretary of Defense; 
though I did rely on the advice of the Chief of Naval Operations (CNO) 
and Commandant. I also think that Goldwater-Nichols got it right in 
providing for civilian service acquisition executives with a clear 
acquisition reporting chain and, as I just mentioned, we're looking at 
ways to make it work even better.

    3. Senator McCain. Secretary England, another panel recommendation 
seeks to set the tenure of the top acquisition civilian to two fixed 5-
year terms. What are your impressions on the DAPA panel recommendation 
to fix the service acquisition executive at a two-term or 10-year 
position?
    Secretary England. I understand the intent of the recommendation 
was to provide stability at the senior decisionmaker level. But I also 
have concerns that lengthy guaranteed fixed terms could actually lessen 
the acquisition executive's accountability for performance. What's more 
important to me is stability at the program execution level, and I'm 
talking about program managers. I think their Defense Acquisition 
Workforce Improvement Act (DAWIA) prescribed terms--4 years or the next 
major milestone--provide the right mix of stability and infusion of new 
management styles and ideas.

    4. Senator McCain. Admiral Giambastiani, one of the Quadrennial 
Defense Review (QDR) recommendations to improve the acquisition system 
is to integrate the combatant commanders more fully into the 
acquisition process. What are your thoughts regarding the increased 
role of combatant commanders in the acquisition process?
    Admiral Giambastiani. I agree that the combatant commanders should 
be fully integrated into the acquisition process. To facilitate full 
combatant commander integration, the Joint Capabilities Integration and 
Development System (JCIDS) was modified to provide a means of direct 
input from the combatant commanders to the Joint Requirements Oversight 
Council (JROC) on their warfighting capability needs. The main vehicle 
for combatant commander input is the Joint Capabilities Document (JCD). 
Once a JCD is validated by the JROC, it is used to task the Services 
and Defense agencies to develop capabilities required by the combatant 
commanders. In addition, the combatant commanders are invited to 
comment on all JROC program capability proposals and to fully 
participate in formal JROC meetings, either in person or via video 
teleconferencing.

    5. Senator McCain. Admiral Giambastiani, what are your 
recommendations of how the DOD should develop and address joint 
requirements?
    Admiral Giambastiani. The JCIDS was developed to specifically 
address joint requirements as guided by national strategic policy as 
well as a set of joint operational concepts developed by the combatant 
commanders and approved by the Secretary of Defense. We continue to 
evaluate the sufficiency of information provided to the JROC in order 
to improve our ability to develop and field joint requirements. In 
particular, we are studying the implementation and use of key 
performance parameters (KPPs) to ensure we are specifying the right 
performance characteristics to deliver an effective capability, as well 
as having programs identify cost drivers to the JROC. This study will 
give the JROC better insight into whether the KPPs are driving costs or 
if some other aspect of the system has the potential to drive cost. We 
are also establishing a set of triggers that will require programs to 
come back to the JROC if their cost, performance, or schedules fall 
outside a set of limits. This will give the JROC the opportunity to 
reengage on a program early enough in the process to direct change or 
determine trade-space.
    In addition, we continue to look for ways to improve the joint 
requirements process by evaluating recommendations made by various 
studies, including those from the QDR, the Defense Science Board (DSB), 
and the DAPA panel. As we identify improvements that will make the 
JCIDS process more effective, we will implement those improvements.

    6. Senator McCain. Admiral Giambastiani, in testimony before the 
Senate Armed Services Committee (SASC), Assistant Secretary of the Army 
for Acquisition, Technology and Logistics, Claude Bolton, characterized 
the 76 percent increase (to $162 billion) in the cost of Future Combat 
Systems (FCS) as the result of requirements creep. Whose responsibility 
is it to control requirements creep and thus keep program costs in 
check?
    Admiral Giambastiani. The JROC provides validation and oversight 
for operational requirements. Each of the Executive Agents and Program 
Managers are responsible for maintaining cost, schedule, and 
performance given the approved requirements and programmatic 
parameters. Specifically with regard to FCS, the JROC, in fulfillment 
of its charter, has reviewed the FCS's Operational Requirements 
Document (ORD) every year since May 2003. The results of this review 
validate that FCS operational requirements are stable, while refining 
the level of detail to assist the program as it translates requirements 
into engineering-level specifications.
    The 2004 FCS program restructure resulted in a November 2005 
adjustment to the acquisition program baseline. That restructure 
actually accelerated the delivery of select FCS capabilities to our 
forces in ``spin-outs'' planned every 2 years from 2010-2014. The 
operational requirements for those spinout systems were already 
documented in the original ORD. In fact, within the base ORD, the only 
change to FCS requirements has been the addition of the 
congressionally-mandated key performance parameters for force 
protection and survivability. The growth in the FCS program cost is 
directly attributable to the programmatic changes in the 2004 
restructure, and is not classified as a cost overrun as reviewed by the 
Department.
    The FCS program is within its acquisition program baseline approved 
by the Defense Acquisition Executive in November 2005, for cost, 
schedule, and performance. My staff receives reports, such as the 
Selected Acquisition Report and the Defense Acquisition Executive 
Summary, that track changes to the FCS program. In addition, the 
program is presently undergoing a JROC review for the original ORD and 
a Capability Development Document Annex that describes Spin-Out #1 
capabilities. We are confident that the Army is managing the program 
within the guidance it receives. The current FCS program has adequate 
risk management measures in place and the technology development 
approach is consistent with DOD acquisition policy.
    As the Chairman of the JROC and Co-chair of the Defense Acquisition 
Board, we are currently making a series of changes to ensure that the 
Department has disciplined management controls and review processes in 
place to ensure programs meet cost, schedule, and performance 
milestones.

    7. Senator McCain. Admiral Giambastiani, does the JROC approve the 
ORD?
    Admiral Giambastiani. Yes, the JROC approves the ORD or the 
Capabilities Development Document (CDD); the CDD being the replacement 
document for the ORD in the revised JCIDS process. The JROC also 
validates a program's KPPs contained in these documents. The KPPs are 
those system performance attributes considered critical to the delivery 
of an effective warfighting capability. To ensure the delivery of a 
required capability, the JROC maintains change control over the KPPs 
for the life of an acquisition program.

    8. Senator McCain. Admiral Giambastiani, what steps are you taking 
to ensure that we control requirements creep and thus enormous cost 
increases and program delays?
    Admiral Giambastiani. The JROC validates the KPPs of every 
program's CDD. The KPPs are those system performance attributes 
considered critical to the delivery of the desired warfighting 
capability. To ensure the delivery of an effective capability, the JROC 
maintains change control over the KPPs for the life of an acquisition 
program. The non-KPPs are those system attributes not considered 
critical to meeting required capability, and the JROC normally 
delegates control over those attributes to the acquiring Service or 
Defense agency. These non-KPP system attributes form the performance 
trade-space for program managers in developing the system. There have 
been cases--for example, the Advanced Extremely High Frequency 
satellite system--where the system is so essential that the JROC does 
not delegate non-KPP change authority. In these cases, the JROC 
maintains change control over all of the system requirements.
    In addition, we are having programs identify their cost drivers to 
the JROC. This will give the JROC better insight on whether the KPPs 
are driving costs or if some other aspect of the system has the 
potential to drive cost. We are also establishing a set of triggers 
that will require programs to come back to the JROC if their cost, 
performance, or schedule falls outside a set of limits. This will give 
the JROC the opportunity to reengage on the program early enough in the 
process to direct change or determine tradespace, thus mitigating the 
effects of requirements creep.

    9. Senator McCain. Admiral Giambastiani, reports have described the 
Boeing 767 tanker deal as the most corrupt acquisition deal in more 
than 35 years. A key finding in the DOD Inspector General report was 
that the JROC process failed to recognize that an Air Force officer 
(Lieutenant Colonel Lepanta) lied to the JROC (a $30 billion 
misrepresentation) on whether the tanker ORD was tailored to the Boeing 
767. This officer's action makes a mockery of the joint requirements 
process and highlights the importance of the JROC process to be above 
reproach. What steps are you prepared to take to ensure that this does 
not happen again?
    Admiral Giambastiani. When creating the JCIDS, one of the early 
shortfalls we recognized was the lack of an independent assessment on 
programs coming before the JROC. To address this shortfall, the 
Functional Capabilities Boards (FCBs) were created. The FCBs are co-
chaired by a Joint Flag Officer and a senior representative from the 
Office of the Secretary of Defense (OSD). The FCBs have a permanently 
assigned staff and representation from the Services, combatant 
commands, and OSD. The role of FCBs is to assess each program that 
comes before the JROC, providing an independent assessment and 
recommendation that identifies key issues for the JROC. This 
independent assessment process is helping us avoid future occurrences 
akin to the issues experienced with the Tanker ORD. We are continually 
identifying ways to improve the effectiveness of the JCIDS/JROC process 
in making program decisions and will press ahead to implement changes 
as necessary.

                           strategic airlift
    10. Senator McCain. Secretary England, Air Force leadership has 
voiced alternatives to the President's budget and in contradiction to 
the QDR position with regard to C-17s and C-5s. The Air Force 
alternative plan would retire the fleet of C-5As (60 total aircraft) in 
order to free up money to buy more Light Cargo Aircraft and create the 
compelling need for more C-17s to fill the capability gap created by 
retiring the C-5As. This is a direct contradiction to guidance provided 
in the QDR and is not in keeping with the President's budget request.
    The QDR calls for the Air Force to finish its purchase of 180 C-17s 
and refurbish its C-5s. Has there been any other guidance given to Air 
Force officials with respect to the procurement of greater than 180 C-
17s and/or the retirement vice modernization of C-5As?
    Secretary England. No official guidance has been given to the Air 
Force to retire C-5As. The UPL request for 7 additional C-17s is 
independent of the C-5A. The Air Force position and program of record 
in the fiscal year 2007 President's budget is 180 C-17s and 112 
modernized C-5s. This fulfills the MCS minimum of 292 intertheater 
airlift aircraft.

    11. Senator McCain. Secretary England, if reports are true and the 
Air Force is advocating the retirement of C-5As in order to purchase 
more C-17s would it or would it not be in direct contradiction to the 
guidance provided by the QDR?
    Secretary England. The QDR position of 180 C-17s and 112 modernized 
C-5s supports intertheater lift requirements with acceptable risk. 
Additional C-17s to offset increased utilization requirements, 
intratheater airlift support, and/or attrition reserves, not addressed 
in the QDR, may be warranted. However, no official guidance has been 
given to the AF to retire C-5As and purchase more than 180 C-17s.

                   quadrennial defense review timing
    12. Senator McCain. Secretary England, a new version of the 
National Security Strategy will be released later this year, and will 
lay out the administration's overarching security policy. It seems to 
follow that a subordinate planning document, like the QDR, would follow 
from this overall vision. In fact, legislation requires that the QDR 
be. . .``consistent with the most recent National Security Strategy''. 
Yet the QDR is being released before the new National Security 
Strategy. This has happened because current law requires the QDR be 
submitted not later than the President's budget for the next fiscal 
year. A change in the law would be needed to require the submission of 
the National Security Strategy prior to the QDR.
    How can the Department plan its future defense posture and programs 
if the administration has not yet determined the latest version of its 
overall strategy?
    Secretary England. We have reviewed drafts of the National Security 
Strategy, and the two documents are fully consistent with each other. 
The strategic thought associated with this QDR began immediately after 
the November 2004 election and went on for the past 18 months. It is a 
continuation of the overall strategy as articulated in the 2002 
National Security Strategy and the National Defense Strategy published 
in March 2005. The QDR provides a vital input to the forthcoming 
National Security Strategy.

    13. Senator McCain. Secretary England, do you think current law 
should be changed, requiring that the National Security Strategy be 
submitted prior to the QDR?
    Secretary England. I do not think the current law should be 
changed. In the situation where there is a change of administration as 
occurred in 2001, the work of the QDR is an important input to the 
formulation of the National Security Strategy and is captured in the 
document. In situations like this QDR there is a continuation of 
strategic through that is reflected in the strategic documents and the 
QDR and does not need to await the publication of a newer National 
Security Strategy.

                              end strength
    14. Senator McCain. Admiral Giambastiani, the QDR calls for 
stabilizing the Army's end strength at 482,400 Active and 533,000 
Reserve component personnel by fiscal year 2011. The Army has recently 
agreed to support a National Guard of 350,000 personnel but it is 
unclear whether the proper funding will be made available. It also 
calls for stabilizing the Marine Corps' end strength at 175,000 Active 
and 39,000 Reserve component personnel by fiscal year 2011.
    In the QDR, under the heading ``Reconfiguring the Total Force'', 
DOD plans on cutting 55,000 servicemembers over the next 3 years. 
Worldwide deployments and disaster relief missions here at home 
continue to tax the Service. Yet the QDR and the current budget request 
recommend reduction in end strength Department-wide.
    Please explain this rationale.
    Admiral Giambastiani. The proposed end strength numbers are 
consistent with the QDR theme of getting to the right mix of 
capabilities in the Total Force. The QDR examined the size and shape of 
the force needed to meet our strategy and concluded that it was 
relatively accurate, but the mix of the force could be improved in that 
the Total Force needs to be more accessible. The QDR also recognized 
that there is considerable progress underway with respect to the 
modularity of forces. When the Army modularization is complete, there 
will be a more resident warfighting capability in smaller, more agile 
brigade combat teams.
    The force reshaping efforts over the next 3 years are proposed to 
come from units that were not considered high-demand forces in 
comparison to others. In fact, the number of operational ground forces 
will grow in size, especially in critical high-demand areas such as 
special operations, civil affairs, and military police.
    Many of the proposed cuts are also an effort to continue military-
to-civilian conversion and other improvements of cost and efficiency. 
The Army, for example, is using the military-to-civilian conversions to 
make room for growing the size of the operational ground forces. The 
Air Force, through optimization of maintenance and support billets, as 
well as military-to-civilian conversions, will decrease its end 
strength and restructure to provide better tools for the combatant 
commanders, such as increased special operations forces, unmanned 
aerial vehicle personnel, and cyberspace protection assets.
    The Navy's end strength goals reflect a commitment to correctly 
sizing the fleet through initiatives such as ``Sea Swap'' rotational 
crews, the decommissioning of older more manpower intensive platforms, 
improved technology to reduce shipboard manning and training, and the 
military-to-civilian conversions mainly in Military Sealift Command and 
medical facilities ashore.
    The Marine Corps is realigning within its end strength to ensure 
continued readiness and combat capability, primarily through utilizing 
Marine Corps Reserve units and individual augmentees.

    15. Senator McCain. Admiral Giambastiani, please explain why the 
Army has utilized stop-loss on more than 50,000 soldiers while the QDR 
and the budget plan to draw down the Reserve component.
    Admiral Giambastiani. Stop-loss is a temporary Service management 
tool that is designed to maintain unit integrity and readiness. Stop-
loss does not permanently affect end strength and is not related to 
determining potential reductions in authorized troop end strength for 
the Reserve components.
    The stop-loss program has been used at various times by the Navy, 
Air Force, and Marine Corps. More recently, the Army has used it in 
support of the global war on terrorism. The Army's mission is to 
deliver trained, ready, and cohesive units to combatant commanders. 
Random and continuing losses caused by separations, retirements, and 
replacement policies have the potential to adversely impact readiness 
in the deploying units. Accordingly, to mitigate those losses, the Army 
will continue to use stop-loss on a limited basis in support of its 
commitment to pursue the long war and to provide combatant commanders 
the ready forces they need to decisively defeat the enemy.
    As of February 28, 2006, there were 13,814 soldiers (Active, Guard, 
and Reserve) affected by stop-loss. None of the other Services are 
currently using the program.

                             special forces
    16. Senator McCain. Admiral Giambastiani, the QDR calls for a 
significant increase in Special Operation Forces (SOFs) capability and 
capacity. ``DOD will increase SOFs by 15 percent and increase the 
number of Special Force Battalions by one-third. U.S. Special 
Operations Command (SOCOM) will establish the Marine Special Operations 
Command (MARSOC). The Air Force will establish an unmanned aerial 
vehicle squadron under U.S. SOCOM. The Navy will support a U.S. SOCOM 
increase in SEAL team manning and will develop a riverine warfare 
capability.'' The QDR recognizes a need for the increase of SOF 
personnel and their capability. It is unclear where the resources 
required for this very important area will come from.
    Will funding for a new MARSOC and Riverine Warfare Squadron come 
out of the Navy's budget--thus reducing the ability to fund naval 
aviation and ship procurement?
    Admiral Giambastiani. The Department of the Navy (DON) has 
requested, via the fiscal year 2006 Emergency Supplemental for Defense, 
initial funding for both the MARSOC and Navy riverine warfare. Out-year 
funding is programmed in the President's fiscal year 2007-2011 Future 
Years Defense Plan (FYDP) budget submission. In addition, the DON has 
reprogrammed personnel to MARSOC and riverine warfare within fiscal 
year 2006 mandated end strengths.
    The DON is equally committed to funding MARSOC and Navy riverine 
warfare squadrons as well as the planned programming to fund ship and 
aircraft procurement. The DON investment strategy for shipbuilding, 
aircraft procurement, MARSOC, and riverine warfare is balanced and 
provides an essential capability mix. This capability mix is vital in 
the execution of the global war on terrorism, but is also leveraged to 
provide capabilities against future threats.

    17. Senator McCain. Admiral Giambastiani, will the funds required 
by the Army to increase their SOF battalions come out of the FCS 
program?
    Admiral Giambastiani. The Army realigned funding from across its 
entire budget in order to fund the increase in special forces 
battalions. I am not aware of funds being reduced from the FCS program 
to offset these increases in special forces battalions.

    18. Senator McCain. Admiral Giambastiani, are resources being 
diverted from some other area of DOD to fund this aggressive increase 
in our SOF capabilities?
    Admiral Giambastiani. In order to begin the necessary increases in 
SOF capabilities called for in the 2006 QDR, funding to U.S. Special 
Operations Command came from a myriad of sources, and across all the 
Services. All of the sources were carefully vetted and should not 
affect any Service's ability to execute our national defense strategy.

                           reserve components
    19. Senator McCain. Secretary England and Admiral Giambastiani, the 
QDR recommends increasing Presidential Reserve Call-up (PRC) from 270 
to 365 days. It seeks legislation to improve access to Guard and 
Reserve in support of civil authorities and it seeks legislative relief 
of PRC statute to activate reservists for natural disasters. It also 
recommends developing Reserve units that train more intensively and 
require shorter notice for deployment.
    We are already hearing from many reservists and their employers 
about deployments which are neither periodic nor predictable. Are these 
policies in the best interests of our Total Force?
    Secretary England. The QDR recommendations you mentioned 
(increasing PRC from 270 to 365 days, improving access to Guard and 
Reserve in support of civil authorities, obtaining legislative relief 
in the PRC statute to activate reservists for natural disaster, and 
recommending the development of Reserve units that train more 
intensively and require shorter notice for deployment) are all elements 
that support the transition of the Reserve components to an 
``Operational Reserve.''
    Implementation of these changes, if legislation is approved, will 
enable the Department to not only employ the Reserve Forces more 
effectively, but also provide a much greater degree of predictability 
for reservists, families, and employers. The change to the PRC 
authority to allow for a call-up for 365 days will enable the Services 
to effectively use the one-in-six planning factor for involuntary 
service and the change to provide full access to the Reserve Forces for 
natural disasters will enhance response capability for events such as 
Katrina (a lesson learned from that unfortunate event). Employing units 
that train more intensively and require shorter notice for deployment 
is a way to maximize the use of volunteers--those who are willing and 
able to make that commitment. This is consistent with our expectation 
management plan in which we are providing information to all affected 
individuals (Reserve component members, their families, and their 
employers) of the duties, obligations, and opportunities of service in 
the Guard or Reserve--we plan to develop expectations first. These 
changes are part of the transition to a more operational Reserve, while 
retaining the fundamental nature of the citizen-soldier.
    Admiral Giambastiani. Yes, these policies are most definitely in 
the best interest to our Total Force. The global war on terrorism and 
recent natural disasters have reinforced the way we view and employ our 
Reserve components. They are no longer a strategic Reserve performing 
Homeland missions as they were during the Cold War. Instead, they now 
operate as both a strategic and an operational Reserve. As such, the 
Reserve component is integral to the planning process at every level of 
warfare and must be considered in each contingency operation and/or 
deployment. We believe these policy changes will add to the 
predictability that our Reserve Forces and their civilian employers 
expect and deserve.
    In addition to improving predictability of deployments, increasing 
PRC authority from 270 to 365 days will help to align with the 
operational rotation cycles currently used by the Active Army and 
Marine Corps. These rotation cycles vary from 6 to 12 months ``boots on 
the ground,'' which are deemed to be the most efficient and effective 
tour length for their respective Services. A maximum duration equal to 
270 days does not readily support those cycles when pre-deployment 
training and post-deployment deactivation are taken into account. 
Expanding that duration to 365 days will facilitate greater ``boots on 
the ground'' time for Reserve component deployments. As the Army Force 
Generation model matures through the 6-year cycle, we believe that more 
efficiency will be gained.
    Moreover, granting the President the authority to employ Reserve 
Forces for use in natural disasters would simply give the Commander in 
Chief the power to use all available assets in times of domestic need. 
The President cannot use the existing PRC to call up the U.S. Army 
Reserve (USAR), U.S. Navy Reserve (USNR), U.S. Marine Corps Reserve 
(USMCR), or the U.S. Air Force Reserve (USAFR) for situations such as 
Hurricane Katrina. In a world without partial mobilization, the ability 
to support Katrina-like scenarios with Reserve Forces would be critical 
and revision of the PRC would enable the President to use all available 
DOD resources to accomplish that mission.
    Finally, in regards to the development of Reserve units that train 
more intensively and require shorter notice for deployment, this too is 
an initiative that will add to the predictability of schedules and 
increase the readiness of the unit and the entire Reserve component. 
While the current construct of 1 weekend per month and 2 weeks of 
annual training per year is still viable, incorporating more 
productive, intense periods of training into the Reserve components is 
vital to mission proficiency and execution.
    As we fight this long war and plan for the future, we must change 
the way we employ and plan for the use of our Reserve components. With 
the support of Congress, we can find the efficiencies we need and 
provide more predictability to our Reserve component forces and their 
employers.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                        interagency coordination
    20. Senator Dole. Secretary England, on February 7, General Pace 
testified before the SASC on the importance of interagency coordination 
and cooperation in the global war on terrorism. The QDR addresses 
interagency operations and notes that National Security Presidential 
Directive 44 designates the Secretary of State to improve overall U.S. 
Government stabilization and reconstruction efforts. In 2005, the DOD 
issued guidance to place stability operations on par with major combat 
operations. Given these seemingly contradictory policies, what 
functions in the war on terrorism should the DOD also be preparing for 
with its interagency partners?
    Secretary England. There is no contradiction between National 
Security Presidential Directive 44 designating the Secretary of State 
to improve overall U.S. Government stabilization and reconstruction 
efforts and DOD guidance to place stability operations on par with 
major combat operations. In fact, they are fully consistent, and 
together they support our vision of unity of effort to build broad 
national solutions for complex issues such as stability operations. 
There are critical elements to any stability operation that we must be 
preparing with our interagency partners: intelligence collection and 
fusion, command and control arrangements, and planning/gaming/
exercising are some examples.

    21. Senator Dole. Secretary England, is the coordination between 
agencies currently where it needs to be when it comes to reconstruction 
and stability operations in Iraq?
    Secretary England. There are two levels to interagency coordination 
on Iraq reconstruction and stability issues: strategic guidance in 
Washington and implementation and execution of U.S. policy of stability 
and reconstruction operations in Iraq.

        <bullet> At the strategic level in Washington, the Iraq Policy 
        Operations Group (IPOG) is a mechanism for interagency 
        coordination. The IPOG, a sub-Policy Coordinating Committee 
        (PCC), is chaired by the National Security Council (NSC) and 
        has representatives from all U.S. agencies. It has several 
        subgroups that cover Iraq reconstruction issues, such as 
        economics and job creation, security, rule of law, and politics 
        and governance. It is proving to be a strong mechanism for 
        agency stakeholders to define issues, identify potential 
        resources, and develop guidance.
        <bullet> In Iraq, the U.S. Embassy and Multi-National Force--
        Iraq are responsible for implementation and execution of U.S. 
        policy of reconstruction and stability operations in Iraq.
        <bullet> There are difficulties occasionally in coordination 
        between agencies at these levels due to numerous reasons, such 
        as resource constraints and security. The Department and the 
        IPOG are, however, constantly evaluating ways to improve 
        interagency efforts in Baghdad and the provinces to achieve the 
        U.S. goals in Iraq.

               defense language transformation initiative
    22. Senator Dole. Secretary England, in 2004, the DOD launched its 
Defense Language Transformation Initiative in an effort to improve the 
ability of the Armed Forces to work more effectively with international 
partners. This is echoed throughout the QDR, which states that, 
``recent operations have reinforced the need for U.S. forces to have 
greater language skills and cultural awareness.'' In order to overcome 
this legacy of a limited emphasis on languages and improve the overall 
linguistic capabilities of the U.S. military, there must be a 
comprehensive and intensive language program. I applaud the 
recommendation for the future establishment of the Civilian Linguist 
Reserve Corps, but what is the Department's plan to recruit language 
professionals and native speakers of Arabic, Farsi, and Chinese into 
the U.S. military?
    Secretary England. The Department has a multi-pronged approach to 
recruit from the Nation's heritage communities about the opportunities 
to serve in the United States military. Targeted recruiting into the 
Nation's heritage communities is a vital part of Defense Language 
Transformation.

        <bullet> Recruiting Enlisted Members: Each Service has built a 
        plan for recruiting from our Nation's heritage communities. 
        These recruiting plans reflect the unique mission and culture 
        of each Service, however, each Service plan does include: 
        interim recruiting goals, target population centers, using 
        recruiters who speak the language of the community, and using 
        the direct approach, advertisements, and cyber recruiting to 
        penetrate the market.
        <bullet> Recruiting Commissioned Officers: To recruit 
        commissioned officers, the Department will target universities 
        that have students with foreign language skills such as Arabic, 
        Chinese, and Farsi. To ensure oversight and focus of Service 
        recruiting efforts, the Defense Language Office and the 
        Military Personnel Accession Policy established a joint Service 
        working group to evaluate, share, and coordinate best practices 
        and lessons learned as we recruit enlisted and commissioned 
        officers for the Department.
        <bullet> Reserve Component Recruiting: To address immediate 
        needs for translators and interpreters to support forces in 
        Operation Enduring Freedom (OEF) in Afghanistan and Operation 
        Iraqi Freedom (OIF) in Iraq, the Army established the 09L 
        Translator Aide program in 2003 to recruit Arabic, Dari, and 
        Pashtu speakers directly into the Individual Ready Reserve. 
        Over the past 3 years, the program recruited 515 Arabic and 
        Afghan speakers into the force and received outstanding ratings 
        from commanders of deployed forces who employed these members. 
        Based on the success of the pilot program, the Army expanded to 
        include Kurdish and Farsi speakers and recommended that the 
        program be institutionalized. In January 2006, the Army 
        established the Translator Aide as a new military occupational 
        specialty. As a military occupational specialty, the 09L 
        Translator Aide soldier now has a viable career path and the 
        Army can retain their language skills. The Army, Army Reserve, 
        and National Guard will each have 104 Translator Aide billets. 
        The 2006 QDR provides $50 million for fiscal years 2007-2011 
        for this program.

    A very successful and effective targeted recruiting initiative is 
the Army's Language Advocate Program. The program was established in 
1999 to reach into select ethnic communities to recruit members with 
language skills into the Military Intelligence (MI) occupational 
specialty. Under the program, select MI soldiers with specific foreign 
language skills, are assigned to the United States Army Recruiting 
Command. These MI soldiers work with recruiters in select ethnic 
communities. The primary focus is to recruit personnel to fill the 
Army's enlisted intelligence specialties; however, if the MI soldier 
identifies an individual who might not be able to obtain a high level 
security clearance, the potential recruit is advised of non-
intelligence specialties that require language skills. During the first 
year of the program, the Army estimated that 12 enlistment contracts 
for heritage speaking recruits saved 586 weeks of training time. For 
fiscal year 2006, the 8 Language Advocates assigned to Recruiting 
Command have a goal of 111 accessions.
    A strong multi-pronged approach that is joint in nature, shares 
best practices, and lessons learned is essential to successfully 
recruiting from our Nation's rich heritage communities. The initiatives 
outlined above reflect the actions that will assist us to meet our goal 
of successful recruiting from our Nation's heritage communities.

                             national guard
    23. Senator Dole. Secretary England, the QDR's first sentence 
states that ``The United States is a nation engaged in what will be a 
long war.'' A theme throughout the document is developing a ``Total 
Force'' for the 21st century. The role the National Guard has played in 
disaster response; their heroic war efforts; and now the QDR's 
recommendations calling for even increased Guard participation in the 
form of Weapon of Mass Destruction Civil Support Teams (WMD CSTs) and 
Enhanced Response Force packages certainly reflect its integral role in 
our national defense. Yet we have seen numerous attempts to not only 
reduce this essential force's end strength, but more importantly, its 
force structure. In my view, a National Guard that is called upon to 
perform so many widely varied missions deserves to be funded and 
equipped properly. Given these facts, will you detail for me how you 
view the National Guard's role in the long war?
    Secretary England. The National Guard plays a critical role in the 
defense of this country, providing warfighting capabilities around the 
world, and at home, establishing security and rebuilding areas damaged 
by natural disasters. The National Guard will continue to play a vital 
role in the defense of this country, both at home and abroad. The Army 
National Guard is structured, manned, trained, and equipped to provide 
the operational depth required for large scale or long term combat and 
joint operations. The National Guard also provides critical defense 
support to civil authorities to include the employment of the WMD CSTs 
and Enhanced Response Force packages.
    Dual missioned, the National Guard will continue to be modularized, 
manned, and equipped to support the missions called upon to defend this 
country. As part of its rebalancing efforts, the Army has committed to 
the Army National Guard (ARNG) force structure. Rebalancing the force 
will require the conversion of some ARNG brigades from combat 
formations to combat support or combat service support units to support 
sustained combat or post-combat operations. This effort will be 
enhanced by a significant investment in ARNG equipment. Personnel 
numbers will reflect the ARNG's success in recruiting--and the Army is 
committed to funding up to the presently authorized end strength of 
350,000 in fiscal year 2007.
    The American people and the Department will continue to rely on the 
National Guard to provide the capability to defeat our adversaries 
around the world and to protect our communities at home as a key 
component of the Total Force.

    24. Senator Dole. Secretary England, will you fund and equip the 
National Guard at levels that allow them to perform the missions we ask 
them to perform as part of the ``Total Force'' in this war?
    Secretary England. The DOD's goal is to ensure that each National 
Guard unit is fully equipped with the most technologically advanced and 
capable equipment prior to deployment to an area of operation. Since 
September 11, 2001, the Department has invested over $10 billion on 
Guard equipment. The fiscal year 2007 budget requests a total of $2.75 
billion for new Guard equipment, including:

        <bullet> $348 million for armored Humvees and other tactical 
        vehicles;
        <bullet> $218 million for Stryker vehicles;
        <bullet> $90 million for High Mobility Artillery Rocket 
        Systems;
        <bullet> $87 million for Single Channel Ground and Airborne 
        Radio Systems;
        <bullet> $343 million for modifications to aircraft such as E-
        8s, F-16s, and C-130s; and,
        <bullet> $439 million for missiles and other munitions.

    Over the fiscal years 2005-2011 time period, the Department plans 
to invest over $27 billion for new National Guard equipment to ensure 
units are equipped to perform as part of the ``Total Force.''
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                            risk assessment
    25. Senator Levin. Admiral Giambastiani, the law lays out as one of 
the principal aims of the QDR as ``to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that National 
Defense Strategy at a low to moderate risk. . . .'' It also provides 
that ``The Chairman of the Joint Chiefs of Staff shall prepare and 
submit to the Secretary of Defense, the Chairman's assessment of the 
review, including the Chairman's assessment of risk.''
    Please provide the Chairman's assessment of the level of risk 
associated with the QDR as low, moderate, or high, and identify the 
nature and magnitude of the political, strategic, and military risks 
involved.
    Admiral Giambastiani. As required by law, the QDR identifies a plan 
that will allow us to accomplish the full range of missions called for 
in the National Defense Strategy at a ``low-to-moderate'' level of 
risk.
    As the Chairman mentions in his assessment of the QDR, any attempt 
to predict the nature of the future security environment is difficult. 
Therefore, the QDR recommends investing toward a fully transformed 
force that will be best prepared to meet the political, strategic, and 
military challenges we may face over the next 20 years. General Pace 
and all the members of the Joint Chiefs of Staff specifically discussed 
this issue and all agree that the level of risk associated with the QDR 
is ``low-to-moderate.''
    Today, the Armed Forces of the United States stand fully capable of 
accomplishing all the objectives of the National Defense Strategy. We 
must prevail now in the global war on terrorism while we also prepare 
for the future. The recommendations of the QDR will allow us to 
accomplish these vital goals.

                budget-driven quadrennial defense review
    26. Senator Levin. Secretary England, in his Chairman's Assessment 
of the QDR, General Pace states that ``The aim was a review that was 
strategy driven, capabilities focused, and budget disciplined.'' He 
also notes that ``The 2006 QDR tackles the most pressing needs of the 
Department in a strategically sound and fiscally responsible manner.'' 
However, the Conference Report to the DOD National Defense 
Authorization Act for Fiscal Year 2000, which made permanent the 
requirement for a QDR, stated that ``A successful review, the conferees 
believe, should be driven first by the demands of strategy, not by any 
presupposition about the size of the defense budget.''
    Given this direction from Congress, why was the QDR ``budget 
disciplined?''
    Secretary England. From the outset of the QDR, there was no 
presumption about the size of the Defense budget. At the start, the QDR 
team and senior leadership explored the following questions: what is 
the nature of the threats the nation faces, and what forces and 
capabilities does the nation need to deal with that range of threats, 
regardless of who would provide the capability and at what cost. 
Accordingly, senior leadership spent an incredible amount of time 
thinking through the four focus areas--defeating terrorist networks, 
defending the homeland in depth, shaping the choices of countries at 
strategic crossroads, and preventing hostile states and non-actors from 
acquiring or using WMD--associated threats and capabilities 
irrespective of cost. Once these issues were laid out, we had to 
reconcile how to achieve the needed capabilities. This process involved 
tradeoffs. Leading edge investments were made and reallocation will 
continue over time.

                     special operations authorities
    27. Senator Levin. Secretary England, on page 29 of the QDR is an 
assertion that to prevent terrorist attacks and disrupt terrorist 
networks ``the Department must be prepared to develop a new team of 
leaders and operators who are comfortable working in remote regions of 
the world, dealing with local and tribal communities, adapting to 
foreign languages and cultures, and working with local networks to 
further U.S. and partner interests through personal engagement, 
persuasion, and quiet influence--rather than through military force 
alone. To support this effort, new authorities are needed.''
    SOFs already do this--they work all over the world with local 
partners to exercise influence. What authority do they not currently 
have that you would request and are you planning to seek further 
authority for clandestine operations or covert operations?
    Secretary England. You are absolutely correct that SOFs possess the 
authorities necessary to prevent terrorist attacks and disrupt 
terrorism networks. The QDR emphasis is to bring these authorities more 
broadly available to greater segments of the Department; not to 
diminish SOF authorities.

                       reserve call-up authority
    28. Senator Levin. Secretary England, the QDR (pages 76-77) report 
states that ``the Reserve component must be operationalized, so that 
select reservists and units are more accessible and more readily 
deployable than today.'' The QDR goes on to state that DOD will 
``Pursue authorities for increased access to the Reserve component'' to 
increase the period authorized for Presidential Reserve call-up from 
270 to 365 days.
    Under current law, the President has authority to order up to 
200,000 members of the Reserve component to Active-Duty for up to 270 
days when it is necessary to augment the Active Forces for any 
operational mission. This is commonly referred to as the PRC authority. 
If this authority is not sufficient, the President has separate 
authority to declare a national emergency and order up to 1 million 
reservists to Active-Duty for up to 24 consecutive months. This 
authority is commonly referred to as partial mobilization authority and 
is currently being used in OIF and OEF. Finally, if even more authority 
is required and Congress declares a national emergency, members of the 
Reserves can be ordered to Active-Duty for the duration of the national 
emergency plus 6 months.
    It is unclear why it is necessary or desirable to increase the 
Presidential Reserve call-up authority from 270 days to a year. Current 
law already provides means of gaining access to the Reserves for more 
than 270 days when it is necessary.
    Why does the QDR recommend increasing the Presidential Reserve 
call-up authority to a year?
    Secretary England. The Total Force has changed significantly over 
the past 2 decades with the Reserve components becoming an integral and 
critical part of the force. Certain capabilities have been designed 
into the Reserve structure and most military operations require some 
elements of Reserve support. Many recent operations have not been of 
the magnitude requiring a declaration of war or national emergency. We 
have learned that these operations, similar to those PRCs for Haiti, 
Bosnia, Kosovo, and Southwest Asia, may require certain types of 
Reserve Forces to be in a deployed status for 6 to 9 months for both 
reasonable and optimal efficiency. Adding pre-operation training time 
and post-operation administration time, 270 days would be insufficient.
    Similarly, the world has changed significantly since the 
hierarchical Reserve call-up authorities were established in law. 
Generally, we can no longer assume that military operations will be 
phased events leading to successively larger operations that can be 
supported with a phased growth in the size of the employed Reserve 
Force, i.e., PRC, to partial mobilization, to full mobilization. 
Flexibility in the legal authorities to independently support these 
operations in the future is necessary, especially as we transition to 
an Operational Reserve.

    29. Senator Levin. Secretary England, why is the President's 
partial mobilization authority to order members to Active-Duty for 2 
years not sufficient?
    Secretary England. The President's partial mobilization authority, 
contained in section 12304 of title 10, United States Code, to order 
Reserve component members to Active-Duty support for 2 years, is 
sufficient. The President determines the appropriate mobilization 
authority that is best suited for the circumstance involved and invokes 
that authority through a subsequent executive order.

    30. Senator Levin. Secretary England, if the Presidential Reserve 
call-up authority is increased to a year, how does the Department plan 
to use it?
    Secretary England. We would use the new authority similarly to how 
we have used the current PRC authority for Haiti, Bosnia, Kosovo, and 
Southwest Asia. This new authority is designed for those specific 
Reserve Forces that would need to be in a deployed status for up to 9 
months. Adding pre-operation training time and post-operation 
administration time would render the current 270 days insufficient.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                       quadrennial defense review
    31. Senator Lieberman. Secretary England, the QDR was widely touted 
as an opportunity for a revolutionary document, given that this was the 
second QDR for the DOD under Secretary Rumsfeld, and the first QDR 
developed after September 11, 2001. However, most reports find the 
prescriptions in the QDR as lacking in boldness. The reason for this 
description is that many experts do not believe any hard choices were 
made in this document. Even though we are moving from a focus on 
conventional threats to a more complicated scenario involving 
asymmetric and irregular threats, we have continued to escalate funding 
for all of our current weapons systems. The problem is that history 
demonstrates that it is likely the United States will see a decrease or 
leveling off in defense spending in the near future, leaving less for 
new, needed capabilities. The QDR is supposed to serve as the venue for 
serving up these difficult decisions. Why did the DOD avoid these tough 
choices?
    Secretary England. We believe a proper ``metric'' for assessing the 
QDR is whether or not the QDR sets the right vector for long-term 
change in the Department, both in terms of military capabilities for 
the range of 21st century challenges our Nation will face, and in terms 
of revamping and modernizing the defense enterprise. In this sense, we 
believe the QDR is indeed a bold document. Consistent with the 
strategic vector of the QDR, there are indeed significant 
recommendations for programmatic changes, as well as proposals for 
leading-edge changes in key selected capabilities such as Special 
Operations, intelligence, biological defenses, and WMD elimination.

    32. Senator Lieberman. Secretary England, it is my understanding 
that a Pentagon-commissioned ``red team'' proposed a number of changes 
for the U.S. military, including canceling the Navy's DDX destroyer, 
building more nuclear submarines, and reexamining the Army's FCS. What 
happened to the recommendations offered by the ``red team?''
    Secretary England. In fact, a number of outside teams informed the 
thinking of the Department's senior leaders during the QDR. The ``red 
team'' recommendations, along with consultation with the major 
Department Boards, such as the DSB and Defense Policy Board, informed 
the process. QDR analytical teams examined all of their recommendations 
and forwarded many of them to the QDR Group of 12 (co-chaired by the 
Deputy Secretary and Vice Chairman of the Joint Chiefs of Staff) for 
review. Those consistent with the QDR focus areas, such as increasing 
unmanned aerial vehicle capability and production, are reflected as 
leading edge investments in the fiscal year 2007 President's budget 
request or will be included in the fiscal year 2008 request.

    33. Senator Lieberman. Secretary England, was there a conscious 
decision to scale back the ambitious goals of the QDR and if so, why 
did this occur?
    Secretary England. The ambitious goals you claim were not scaled 
back. The QDR establishes the strategic vector for the Department and 
emphasizes four critical areas for the Department: defeating terrorist 
networks, defending the Homeland in depth, shaping the choices of 
countries at a strategic crossroads, and preventing the acquisition or 
use of WMDs by hostile actors. Omission of reference to a specific 
weapon system or program in the QDR report does not constitute scaling 
back goals. The QDR Execution Roadmaps continue to work the substance 
of the strategic vector.

                                 china
    34. Senator Lieberman. Admiral Giambastiani, according to the QDR, 
China has the ``greatest potential to compete militarily with the 
United States and field disruptive military technologies.'' Although 
United States foreign policy continues to encourage China to choose a 
path towards political liberalization and economic partnership, we must 
face the reality that China continues to invest heavily in their 
military. In particular, it is estimated that by 2010, China will 
possess a submarine fleet of over 50 boats. According to a February 
2006 Congressional Research Service report, there is no slowdown of 
Chinese submarine production in sight. The QDR does recognize the 
importance of increasing our submarine production, and that's a good 
thing. However, the current plan is to increase production to two 
submarines a year in 2012. Quite simply, this acceleration of 
production comes too late in the game. If we wait until 2012, we risk 
allowing China a window of opportunity in which there is an escalated 
threat to Taiwan's independence. Furthermore, we also put our domestic 
submarine manufacturing base in serious jeopardy. Building submarines 
requires a highly skilled workforce, and if we do not sustain these 
workers, we cannot make them magically reappear in 2012. Did the QDR 
raise any concerns about our maritime capability in light of the growth 
of China's undersea warfare capability?
    Admiral Giambastiani. The QDR raised numerous concerns regarding 
the military capabilities of several countries, including China, as 
part of the QDR's evaluation of countries at ``strategic crossroads.'' 
This discussion was also balanced by the additional focus of other 
equally pressing considerations, such as defeating terrorist networks, 
defending the Homeland, and preventing hostile states and non-state 
actors from acquiring or using WMD. During QDR deliberations, it became 
clear that we needed to maintain our capability to build quality 
submarines and to continue our technological advantage against an 
increasingly capable country, and thus we rejected proposals of fewer 
submarines in favor of maintaining our submarine production and 
returning to steady-state production of two attack submarines per year 
by 2012.

    35. Senator Lieberman. Admiral Giambastiani, with the submarine 
fleet we have now, and continuing at the rate of production of only one 
boat a year until 2012, is the United States able to counter 
effectively the increasing number of submarines the Chinese put to sea?
    Admiral Giambastiani. The QDR included a thorough review of our 
submarine force structure requirements and determined that a production 
rate of one boat per year through 2011 is an acceptable level of risk. 
We understand the QDR is a point-in-time document in a very dynamic 
process, so we will continually assess our total force capabilities 
against both current and future threats to our national interests. 
While submarines remain a key element of the Total Force, they are only 
one component of our anti-submarine warfare (ASW) capabilities. With 
the help of Congress, the Department has invested resources in ASW 
platforms, sensors, and training so our overall capability in this 
challenging warfighting area continues to keep pace with the threat.

    36. Senator Lieberman. Admiral Giambastiani, can you describe the 
intelligence risk we will sustain if this inequality of production 
continues?
    Admiral Giambastiani. China's submarine modernization effort is 
producing a substantially more modern and capable submarine force than 
its predecessors. We expect the Chinese submarine force to constitute a 
key element of their anti-access strategy to deny U.S. naval force 
access during conflict. While both the size and sophistication of the 
Chinese force is a concern, potential negative aspects of build rate 
inequalities may be ameliorated through employment of a diverse array 
of intelligence collection and anti-submarine warfare platforms, 
including distributed sensors, unmanned vehicles, submarines, surface 
ships, helicopters, and maritime patrol aircraft.

                                 russia
    37. Senator Lieberman. Admiral Giambastiani, Russia retains a 
significant submarine force. What is the global operational risk the 
Russians exhibit?
    Admiral Giambastiani. Russia continues to operate some highly 
capable SSNs, SSBNs, and diesel submarines, and continues to build 
sophisticated submarines (albeit at a greatly decreased rate since the 
Cold War). Russian deployments have also tapered off significantly 
since the fall of the Soviet Union. The Russians appear to be focusing 
on maintaining combat readiness rather than conducting sustained at-sea 
operations.
    The proliferation of very capable Russian weapons systems, 
including submarines and submarine technology, is a part of today's 
global environment. The sale of Russian submarines to third parties 
increases the threat that U.S. naval forces will need to engage more 
advanced weapons systems during operational missions.
    Nevertheless, the United States still enjoys a significant tactical 
advantage in submarine platforms, sensors, weapons, and, most 
importantly, crew training. The United States also enjoys an asymmetric 
advantage in the experience gained from operations around the world.

                               new london
    38. Senator Lieberman. Admiral Giambastiani, the QDR dictates that 
60 percent of the United States' submarine fleet should be located in 
the Pacific. To comply with this requirement, the Navy has decided 
recently to move submarines from New London to their new locations in 
the Pacific. The decision to move three submarines from New London, 
rather than another location, does not reflect the current threat 
environment. Submarines based in New London are positioned to operate 
in the Atlantic, and can also reach the Pacific quickly via the polar 
route. It makes sense that if the United States wants to increase its 
Pacific presence, it should keep the submarine fleet in New London 
strong. Furthermore, the repositioning of submarines to the Pacific 
suggests we need to expand our undersea warfare capability as soon as 
possible if we want to keep risks associated with undersea warfare at a 
manageable level. Can you justify the decision to move submarines from 
the strategically advantaged position of New London?
    Admiral Giambastiani. The New London Submarine Base is a vital 
component of the United States Atlantic Fleet. Submarines from east 
coast bases play a significant role in forward deployed Navy missions.
    The 2006 QDR directed ``The fleet will have greater presence in the 
Pacific Ocean, consistent with the global shift of trade and transport. 
Accordingly, the Navy plans to adjust its force structure and basing--
(including) 60 percent of its submarines in the Pacific to support 
engagement, presence, and deterrence.''
    To comply with the QDR the Navy has decided to move three 
submarines from New London and two submarines from Norfolk over the 
next 3 years to bases in the Pacific. Of the New London submarines, two 
are Seawolf class submarines that due to their stealth, speed, and 
payload are best utilized for Pacific Theater Commander requirements.
    The Navy plans to maintain the 60-40 percent Pacific and Atlantic 
fleet balance of submarines by assigning the new Virginia class ships 
to Pearl Harbor and New London as required to maintain the correct 
percentage. New London will continue to be an important Navy submarine 
homeport well into the future.

                            types of threats
    39. Senator Lieberman. Secretary England, the QDR outlines four 
types of threats: traditional, irregular, catastrophic, and disruptive. 
As I read the QDR, the decisions which were made did a good job 
matching up our irregular risks with necessary programmatic changes. On 
the other hand, I saw very little in resource allocation that reflected 
the threats posed by catastrophic and disruptive challenges. Why were 
these two components of the threat assessment largely ignored in the 
reorientation of capabilities and forces? In particular, an outline of 
our future military capabilities addressing Homeland defense was, at 
best, inadequate. Can you explain why the QDR failed to address these 
important areas?
    Secretary England. The QDR takes a comprehensive approach to 
building military capabilities: instead of trying to ``pigeonhole'' 
specific capabilities with specific threats, we recommend building a 
portfolio of capabilities that can help us to overcome multiple 
challenges, be they associated with traditional, irregular, 
catastrophic, or disruptive threats. By focusing on four critical areas 
for assessing our military capabilities, we believe the QDR sets the 
stage for balancing risks to our Nation across the spectrum of 
challenges you describe.

                            risk assessment
    40. Senator Lieberman. Secretary England, when particular decisions 
about weapons systems and force structure were made for the QDR, these 
choices generated a certain level of strategic risk. For example, 
continuing to support all of the conventional weapons systems generates 
some level of risk for the other three categories of challenges 
(catastrophic, irregular, disruptive) outlined in the QDR. However, in 
the QDR, I could not find a substantial discussion of risk assessment. 
There is always some level of risk in the military decisions we make, 
but I saw no evaluation or analysis of risk in the document. Can you 
comment on why risk assessment was not included in the QDR?
    Secretary England. The Department constantly referenced the QDR 
2001 risk areas: Operational Risk, Force Management Risk, Future 
Challenges Risk, and Institutional Risk during this QDR. The Chairman 
of the Joint Chiefs of Staff's assessment of the 2006 QDR found at 
Annex A of the report does specifically address risk assessment finding 
``The recommendations contained in this report provide future 
capability, capacity, and flexibility to execute these assigned 
missions, while hedging against the unknown threats of 2025.''

                           strategic posture
    41. Senator Lieberman. Admiral Giambastiani, how does the 
possibility of a civil war in Iraq challenge the strategic posture of 
the U.S. military?
    Admiral Giambastiani. Our national objectives for developing a 
unity government that is representative of all Iraqi citizens, and that 
is at peace with itself and its neighbors, are even more important 
today than before and the Iraqis understand this. Although the 
possibility for civil war remains, we will do everything we can to 
prevent it. Our presence in many areas is stabilizing and prevents 
further violence, regardless of whether it is motivated by 
sectarianism, terrorism, or rejectionism.
    We will continue our mission of security and stability in Iraq. 
This mission challenges our strategic posture, but the challenge is 
manageable. We will continue to support the development of a 
responsive, inclusive government as well as accountable, self-reliant 
security forces. These actions are ultimately the best approach to 
preventing civil war. In the end, Iraqis must prevent a civil war.

    42. Senator Lieberman. Admiral Giambastiani, a civil war poses 
different risks than asymmetric, counter-insurgency warfare. It seems 
to me that a civil war is actually a category of warfare not covered in 
the QDR. As we look at the QDR with regards to the immediate future in 
Iraq, what are our military options?
    Admiral Giambastiani. The QDR is very comprehensive and includes 
sustaining U.S. military capabilities along the entire spectrum of 
warfare, of which civil war is a part. Military capabilities are 
flexible and can be used from humanitarian assistance to peacekeeping 
to major combat operations. The QDR does have added growth in the 
development in irregular warfare capabilities. However, civil war as a 
category can include major combat operations as well as irregular forms 
of warfare, and is defined by the fact that it is internal to a nation-
state and not between nation-states. Civil war is not defined by a 
particular method of warfare. Our military is prepared for any kind of 
warfighting, both internal and external to Iraq, and this is included 
in the QDR.

    43. Senator Lieberman. Admiral Giambastiani, how will we handle the 
challenge if neighboring countries entered the fight in Iraq?
    Admiral Giambastiani. We have a U.N.-mandated responsibility to 
protect the integrity of Iraq and its borders and we will fulfill this 
mandate in partnership with the Iraqi government and our coalition 
partners. We view the likelihood of any such overt military involvement 
by a neighbor of Iraq as very low.

                           army end strength
    44. Senator Lieberman. Admiral Giambastiani, at a February 28 SASC 
hearing on worldwide threats, Lieutenant General Michael Maples, 
Director of the Defense Intelligence Agency, stated that in Iraq, ``the 
insurgency is emboldened and will remain active throughout 2006.'' As I 
understand it, part of the justification for decreasing the Army's end 
strength in the QDR is based upon the assumption that the United States 
will be drawing down our troops in Iraq. Do the recent events in Iraq 
call into question the QDR's call for a decrease in Army end strength?
    Admiral Giambastiani. The current troop level in Iraq was not an 
assumption used in QDR deliberations regarding the Total Force and the 
stabilization of Army end strength. The QDR endorses the Army's move to 
modularize its force, which actually calls for an increase in the 
number of operational forces and increases the number and lethality of 
BCTs. These BCTs will be more capable and more agile--which will be 
more effective in the long war.

    45. Senator Lieberman. Admiral Giambastiani, if the United States 
continues to engage in irregular warfare beyond Iraq, at or above that 
level of deployment, what is the correct ratio of brigades that must 
support deployed units?
    Admiral Giambastiani. Ongoing analysis will continue to assess how 
to better optimize balance between modular BCT and support brigades. 
Army's shift to modular brigades already includes reduction in support 
forces, and better integration of those forces with modular BCTs. As 
planned, the ratio of operational to support brigades will be:

        Regular Army: 42 BCTs/75 support brigades;
        Army National Guard: 28 BCTs/78 support brigades;
        United States Army Reserves: 58 support brigades.

    This represents a 46-percent increase in readily available combat 
power and better balances between combat and support forces. Ongoing 
operational availability studies will continue to assess the 
sufficiency of both operational and support units to inform future 
decisions regarding operational to support ratios.

                          defense acquisition
    46. Senator Lieberman. Secretary Henry, the acquisitions process 
was not addressed extensively in the QDR, even though the defense 
acquisitions process is often expensive and cumbersome which rarely 
meets the timeframes initially promised. There is an extensive 
discussion of process in the document, which describes the new 
streamlined organizational structure of DOD. It may be that the new 
organizational structure of DOD is supposed to help solve some of the 
problems of defense acquisitions, but from reading the QDR, I'm unsure 
about the connection. Can you tell me how the QDR addresses the 
problems facing defense acquisitions?
    Secretary England. QDR Integrated Product Team #5, Business 
Practices and Processes had a specific working group looking at 
acquisition and support and another examining joint governance. 
Throughout the QDR process the Department recognized there were some 
initiatives that could not be adequately addressed even in a year-long 
review. The QDR Execution Roadmaps are designed to continue the 
analysis and discussion for a select number of QDR efforts. One of 
these is the Institutional Governance and Reform Roadmap led by Under 
Secretary of Defense for Acquisition, Technology, and Logistics and the 
Director of the Joint Staff. This effort is specifically addressing 
defense acquisition and culminating the work of the early working 
groups.

                 quadrennial defense review development
    47. Senator Lieberman. Secretary England, when I sponsored 
legislation in 1997 with Senator Dan Coats to create the QDR process, I 
viewed it as an opportunity for Congress to gain a comprehensive 
oversight of DOD. Also, the QDR was designed to provide DOD with an 
opportunity to reassess the military's strategic threats and make sure 
our resources and future weapons development match those threats. 
Ideally, the budget should not drive the process. Instead, the intent 
of our legislation was to enable the strategic threat posture to drive 
the decisions outlined in the QDR. The future direction of our U.S. 
military should flow from the strategic risks we face. To this end, can 
you describe the process in which this QDR was developed and was it 
formulated in a top-down manner with the strategic threats and risks 
driving the recommendations for operations? Or, is it more accurate to 
say that it was developed concurrently with the fiscal year 2007 
budget?
    Secretary England. The 2006 QDR Report was released concurrently 
with the fiscal year 2007 President's budget but the strategic thought 
and top-down formulation was ongoing for the previous 15 months. The 
phases of the 2006 QDR demonstrate an absolute commitment to the letter 
and the spirit of the legislation you cosponsored in 1997. QDR began 
with a number of senior leader sessions to review the strategic 
environment and provide top-down guidance. This phase reviewed the 
National Defense Strategy published in March 2005 and culminated in the 
publication of the Terms of Reference for the QDR, which provided 
internal departmental guidance for conducting the review. The Terms of 
Reference reviewed the strategic challenges and identified four focus 
areas for the 2006 QDR and these four areas provide the framework for 
all subsequent QDR work. A series of senior roundtables with 
interagency partners gave specific guidance on the capabilities for 
review within these focus areas. The next phase of QDR involved the 
formation of the six Integrated Product Teams and their working groups. 
Once again top-down strategic thought guided these efforts as each team 
was led concurrently by a senior uniformed officer and civilian. The 
results of the Integrated Product Teams were reported to the senior 
leadership in the next phase through the creation of the Group of 12 
co-chaired by the Deputy Secretary and the Vice Chairman of the Joint 
Chiefs of Staff. Strategic threats and risk assessment discussions were 
continuously reviewed in the 50+ Group of 12 meetings. Throughout the 
QDR in-progress reviews were presented to the Senior Leadership Review 
Group and the Senior Planning Council to reinforce the top-down nature 
of this QDR. As the fiscal year 2007 budget request was developed in 
the fall 2005, the strategic thought and risk assessment associated 
with the QDR provided the measure stick for assessing the Department's 
program and budget.

                               education
    48. Senator Lieberman. Admiral Giambastiani, there is copious 
discussion of the needs of the ``21st century Total Force'' in the QDR. 
Besides language training, I do not see how the military transformation 
outlined in the QDR can develop the skills of the modern warfighter. 
What do your educational and training plans for transformation entail? 
Specifically, who will receive the training (enlisted, officers) and 
what new curriculum will be used?
    Admiral Giambastiani. Per a task levied upon the Secretary of 
Defense in the NDAA 2005, the Department will soon forward a 
``Strategic Plan for Joint Officer Management and Joint Professional 
Military Education'' for congressional consideration. The development 
of this plan was largely based on the CJCS Vision for Joint Officer 
Development published in November 2005. The vision posits the 
requirement to identify and inculcate a set of joint leader 
competencies and skills based on the enduring values and future 
missions of the Joint Force. Our intent is to produce the leaders we 
need for the ``future force'' by linking our professional military 
school curricula to a defined set of enduring leader competencies that 
are under development now.
    I am also pleased to inform you that we recently published our 
first Joint Enlisted Professional Military Education Policy to address 
the educational needs of our enlisted personnel. The policy provides 
guidance to the Services regarding joint learning objectives that must 
be incorporated into Service education programs. This brings the 
enlisted program in line with our officer education system and creates 
a ``private through lieutenant general'' holistic approach to joint 
education.
    Lastly, the QDR identified a number of areas that ``21st century 
warfighters'' must be competent in beyond language training. Parallel 
work is being done to expand our capabilities and skills in irregular 
warfare, interagency operations, stability operations, information 
operations, combating WMD, and improved regional and cultural 
expertise. In this regard, we are thoroughly assessing how well our 
education and training programs will prepare our officer and enlisted 
warfighters to meet these future challenges. After our assessment is 
complete, we will adjust existing officer and enlisted curricula or 
create new curricula to fill any gaps in our existing programs.

    49. Senator Lieberman. Admiral Giambastiani, how is this 
educational and retraining priority reflected in DOD's fiscal year 2007 
budget?
    Admiral Giambastiani. We have increased our commitment to this 
critical area. Our fiscal year 2007 budget reflects an increase of $149 
million over fiscal year 2006 and stands at $181 million. Of this 
total, $130 million will fund QDR endorsed initiatives and $51 million 
will continue to support the proficiency enhancement program at the 
Defense Language Institute. Over the FYDP, resourcing will consist of 
$760 million to equip our forces with the language and cultural skills 
they will need for 21st century missions. The budget provides the 
resources to: increase the language competency of general forces in 
languages like Arabic and others; expand language training for Special 
Operations and intelligence units; and increase pay and recruitment of 
native speakers to serve as translators and interpreters for 
operational forces.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                         science and technology
    50. Senator Reed. Secretary England, the QDR mentions the need for 
``sustaining America's scientific and technological advantage over 
potential competitors.'' What detailed strategy has been developed or 
is being developed to ensure this occurs?
    Secretary England. The Director, Defense Research and Engineering 
is developing a Research and Engineering Strategy to be published in 
the near future. The strategy establishes a framework for strategic 
planning activities for the Services and agencies, and guides future 
science and technology investments.

    51. Senator Reed. Secretary England, the previous QDR set a goal of 
investment of 3 percent of the Defense budget in science and technology 
programs. Was any such goal analyzed for this QDR and why was no 
specific target set for science and technology programs?
    Secretary England. This QDR reviewed the 3 percent goal of 
investment in science and technology programs and found it 
satisfactory. There were discussions about emphasizing specific types 
of science and technology, such as advanced biological defenses.

                            industrial base
    52. Senator Reed. Secretary England, the QDR states that there 
should be a shift in the Department's emphasis from ``broad-based 
industrial mobilization--to targeted commercial solutions.'' Please 
elaborate on this statement and describe any policy and programmatic 
initiatives in place that are supportive of it. Are there some 
technologies and systems that DOD will depend on that cannot be 
addressed with commercial solutions?
    Secretary England. During the Cold War, the Department planned to 
mobilize domestic production to fight a prolonged land war in Europe 
against the Soviet Union and its allies. Today, instead of planning to 
mobilize the entire U.S. industrial base to fight a prolonged, high 
intensity conflict, the Department primarily plans to fight lower 
intensity conflicts using available defense materiel (for example, 
planes, ships, armored ground vehicles, telecommunications systems, and 
surveillance platforms). Nevertheless, DOD components have developed 
targeted industrial preparedness measures to accelerate production of 
defense-unique items like precision munitions, critical troop support 
items, and spares.
    There are, however, cases in which the Department should rely on 
primarily-commercial industry segments in which it is a relatively 
minor player. For instance, commercial information technology (IT) and 
products represent the state-of-the-art in 21st century communications. 
They are produced globally and commercial suppliers are the best in the 
world in many market segments. The global commercial IT market dwarfs 
the defense IT market and the Department's leverage over that market is 
limited. Whereas U.S. defense spending accounts for roughly half the 
world's defense spending, U.S. defense IT spending accounts for only 
about one percent of the world IT market. Although there are risks 
associated with employing commercial technologies (uncertain strategic 
technology direction, uncontrolled technology access and dissemination, 
obsolescence) commercial IT products offer a number of benefits. The 
technology is the most current and advanced available, development 
costs are amortized over the broader commercial business base, and 
there are numerous competitive suppliers. Accordingly, commercial IT 
products frequently offer better performance and are less expensive 
than technology procured solely for DOD applications. To the extent 
that the Department can utilize commercial IT, it does.
    Other industry segments with strong commercial market focus offer 
similar benefits. The Department must increasingly leverage state-of-
the-art commercial technologies and products, and manage the risks 
accordingly.

    53. Senator Reed. Secretary England, did any QDR analyses look at 
the preservation of these militarily-unique portions of the industrial 
base and what were their recommendations?
    Secretary England. During QDR discussions on the focus area 
``defending the Homeland in depth'' there was a great deal of senior 
leader discussion about preserving the military-unique portions of the 
industrial base especially those associated with critical 
infrastructure protection. Additionally, munitions, shipbuilding, and 
aerospace industries were considered. The specific recommendations were 
not all captured in the QDR report and continue to inform the fiscal 
years 2008-2013 program development.

    [Whereupon, at 4:30 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
